 AUDIT OF OFFICE OF COMMUNITY ORIENTED
POLICING SERVICES GRANTS AWARDED TO THE
         CROW TRIBE OF INDIANS
         CROW AGENCY, MONTANA



        U.S. Department of Justice
      Office of the Inspector General
               Audit Division


        Audit Report GR-60-12-007
                March 2012
     AUDIT OF OFFICE OF COMMUNITY ORIENTED
    POLICING SERVICES GRANTS AWARDED TO THE
             CROW TRIBE OF INDIANS
             CROW AGENCY, MONTANA

                     EXECUTIVE SUMMARY

      The Office of the Inspector General, Audit Division, has
completed an audit of Office of Community Oriented Policing Services
(COPS) grants awarded to the Crow Tribe of Indians (Tribe) of
Montana. The audit included four grants: (1) COPS Tribal Court Pilot
Program (TCPP) Grant No. 2005-HE-WX-0005 in the amount of
$441,000, (2) COPS Tribal Resources Grant Program (TRGP) Grant
No. 2007-HE-WX-0039 in the amount of $398,901, (3) COPS
Methamphetamine Initiative (Meth) Grant No. 2007-CK-WX-0313 in
the amount of $399,157, and (4) COPS Hiring Recovery Program
(CHRP) Grant No. 2009-RK-WX-0520 in the amount of $146,474.
The Tribe was awarded a total of $1,385,532 to implement the grant
programs, as shown in Exhibit 1.

                         EXHIBIT 1
      OFFICE OF COMMUNITY ORIENTED POLICING SERVICES
       GRANTS AWARDED TO THE CROW TRIBE OF INDIANS
                   COPS     AWARD     AWARD
   GRANT AWARD    PROGRAM START DATE END DATE AWARD AMOUNT
 2005-HE-WX-0005    TCPP   09/01/05  08/31/08  $   441,000
 2007-HE-WX-0039   TRGP    08/01/07  08/31/10      398,901
 2007-CK-WX-0313    Meth   09/01/07  08/31/11      399,157
 2009-RK-WX-0520   CHRP    07/01/09  06/30/12      146,474
                                       Total:  $1,385,532
Source: COPS

       The purpose of the TCPP grant was to further develop the justice
system. Budgeted items included partial funding for three court
positions, goods and services to assist personnel, and 100 hours of
evaluation services. The purpose of the TRGP grant was to increase
the visibility of Tribal police in the community and increase vehicle
patrols on the reservation. Budgeted items included equipment,
uniforms, and vehicles for tribal police officers. The purpose of the
Meth grant was to address partnership development, prevention,
training, and intelligence gathering. Budgeted items included fully
funding a Meth Project Coordinator, equipment and supplies for police
work and for recording and storing data related to meth usage,
community events, overtime for officers participating in meth related
work, meth training, and a program evaluation. The purpose of the
CHRP grant was to create jobs and increase community policing
capacity. Budgeted items included fully funding one entry-level sworn
officer for three years.

       The COPS Office was established as a result of the Violent Crime
Control and Law Enforcement Act of 1994 to assist law enforcement
agencies in enhancing public safety through the implementation of
community policing strategies in jurisdictions of all sizes across the
country. Community policing focuses on proactive collaborative efforts
to prevent and respond to crime, social disorder, and fear of crime.
COPS provides funding to state, local, and tribal law enforcement
agencies to hire and train community policing professionals, acquire
and deploy cutting edge crime-fighting technologies, and develop and
test innovative policing strategies.

       The TCPP and the TRGP are part of a series of programs created
to meet the needs of law enforcement in Native American
communities. COPS Meth funding supports enforcement, training, and
prevention activities nationwide but is concentrated in areas with the
greatest need for assistance in combating methamphetamine
production, distribution, and use. The CHRP is funded through the
American Recovery and Reinvestment Act (Recovery Act) of 2009,
P.L.111-5. It provides funding directly to law enforcement agencies to
support new hires, rehires, and/or retained career law enforcement
officers in an effort to create and preserve jobs, and to increase their
community policing capacity and crime prevention efforts. 1

      The Crow Tribe of Indians, originally called the Apsáalooke, has
approximately 11,000 members, 7,900 of whom reside on the Crow
Indian Reservation (Reservation). The Reservation is located in south
central Montana and encompasses approximately 2.3 million acres.
The Crow Indian Reservation was established by treaty in 1851.

      Two components of the Tribe were most impacted by the grants:
the Judicial Branch and the Police Department. The Tribe repealed its
1948 Constitution, replacing it with the Crow Constitution and By-Laws
of 2001. The purpose of the new Constitution was to provide
separation of powers and to establish an independent Tribal Court.


   1
       Officers retained are those officers who were, at the time of the application,
scheduled to be laid off on a future date as a result of state, local, or tribal budget
cuts.”

                                          ii
The Bureau of Indian Affairs (BIA) Police Department, Crow Agency
Office, has jurisdiction over Indians on the reservation. The current
police force consists of Federal Police Officers paid under the BIA Law
Enforcement Services and Tribal Officers paid under the Tribe’s
General Fund.

       The purpose of this audit was to determine whether
reimbursements claimed for costs under the grant were allowable,
supported, and in accordance with applicable laws, regulations,
guidelines, and terms and conditions of the grant, and to determine
program performance and accomplishments. The objective of our
audit was to review performance in the following areas: (1) internal
control environment, (2) drawdowns, (3) grant expenditures, including
personnel and indirect costs, (4) budget management and control,
(5) matching, (6) property management, (7) program income,
(8) financial status and progress reports, (9) grant requirements,
(10) program performance and accomplishments, and (11) monitoring
of subgrantees and contractors. In addition to the objectives above,
for CHRP Grant No. 2009-RK-WX-0520, we also reviewed performance
in the following areas: (1) application statistics, (2) officer type
funded and entry-level salary provisions, (3) supplanting, (4) retention
plan, and (5) community policing plan. We determined that matching,
program income, and monitoring of subgrantees were not applicable to
these grants.

     We examined the Tribe’s accounting records, financial and
progress reports, and operating policies and procedures and found:

   •   receiving procedures were not adequate as there were not
       sufficient controls to ensure that the items and services billed
       matched those received;

   •   $186,287 in unallowable contract expenditures for Grant
       No. 2005-HE-WX-0005 that were not included in the approved
       grant budget;

   •   $1,589 in unsupported equipment and supplies expenditures for
       Grant No. 2007-HE-WX-0039;

   •   $252,478 in unallowable equipment and supplies expenditures
       for Grant No. 2007-HE-WX-0039, which included eight vehicles
       not used for purposes specified in the grant;

   •   $6,499 in unsupported expenditures for Grant

                                     iii
    No. 2007-CK-WX-0313;

•   $1,369 in unallowable travel and training costs for Grant
    No. 2005-HE-WX-0005 incurred by persons not authorized to
    receive training under the grants;

•   $12,424 in unallowable travel and training costs for Grant
    No. 2007-HE-WX-0039 incurred by persons not authorized to
    receive training under the grants;

•   $1,095 in unsupported travel and training costs for Grant
    No. 2007-HE-WX-0039;

•   $3,784 in unallowable travel and training costs for Grant
    No. 2007-CK-WX-0313 incurred by persons not authorized to
    receive training under the grants;
•   the Tribe transferred budget funds among direct cost categories
    in excess of 10 percent of the total award amount for Grant
    No. 2005-HE-WX-0005;

•   $21,506 in unallowable salaries and fringe benefits expenditures
    for Grant No. 2005-HE-WX-0005 for an unapproved court
    position;

•   $6,125 in excess expenditures for Grant No. 2007-CK-WX-0313
    for duplicate payroll charges caused by an internal control
    weakness in the accounting system;

•   $4,288 in unallowable fringe benefit expenditures for Grant
    No. 2005-HE-WX-0005 for charges not identified in the approved
    budget;

•   equipment purchased with Grant Nos. 2007-HE-WX-0039 and
    2007-CK-WX-0313 was not adequately monitored or identifiable
    as federally funded;

•   $10,316 in unverifiable accountable property for Grant
    No. 2007-CK-WX-0313 for 2 thermal cameras;

•   for Grant No. 2005-HE-WX-0005, Tribe officials did not seek or
    obtain approval from COPS prior to a sole source procurement in
    contracted legal services for $128,537;



                                iv
  •   for Grant No. 2007-HE-WX-0039, the Tribe’s use of grant
      resources did not significantly contribute to the development of
      tribal law enforcement infrastructure or support community
      policing;

  •   for Grant No. 2009-RK-WX-0520, the Tribe reported data in the
      CHRP application that was inaccurate or not possible to replicate
      in seven instances;

  •   $25,593 in excess payroll expenditures for Grant
      No. 2009-RK-WX-0520 that exceeded entry-level salary and
      fringe benefit levels; and

  •   for Grant No. 2009-RK-WX-0520, the Tribe did not fully enact
      the community policing plan outlined in the completed 2009
      CHRP grant application.

     These items are discussed in detail in the Findings and
Recommendations and Supplemental Review of 2009 COPS Hiring
Recovery Program sections of the report. Our audit objectives, scope,
and methodology are discussed in Appendix I.




                                   v
                              TABLE OF CONTENTS

INTRODUCTION ........................................................................ 1
     Background.......................................................................... 2
     Our Audit Approach............................................................... 4
FINDINGS AND RECOMMENDATIONS ....................................... 6
     Internal Control Environment ................................................. 6
          Single Audit ................................................................... 6
          Financial Management System.......................................... 7
     Drawdowns .......................................................................... 8
     Transaction Testing ............................................................... 9
          Allowability of Travel and Training Expenditures................. 11
     Budget Management and Control ........................................... 12
     Headcount and Payroll .......................................................... 14
          Unallowable Position....................................................... 14
          Duplicate Payroll Charges ............................................... 15
          Unallowable and Excessive Fringe Benefits ........................ 15
     Accountable Property ........................................................... 15
     Indirect Costs ...................................................................... 16
     Reports .............................................................................. 17
          Financial Status Reports ................................................. 17
          Categorical Assistance Progress Reports ........................... 20
          Recovery Act Reporting .................................................. 22
     Compliance with Grant Requirements ..................................... 22
     Program Performance and Accomplishments ........................... 24
          Grant No. 2007-HE-WX-0039 .......................................... 25
          Grant No. 2007-CK-WX-0313 .......................................... 26
          Grant No. 2009-RK-WX-0520 .......................................... 27
     Monitoring Contractors ......................................................... 28
     Recommendations ............................................................... 29
SUPPLEMENTAL REVIEW OF 2009 COPS HIRING RECOVERY
   PROGRAM (CHRP) ............................................................ 32
     Application Statistics ............................................................ 32
     Officer Type Funded and Entry-Level Salary Provisions ............. 33
     Supplanting ........................................................................ 35
     Retention Plan ..................................................................... 37
     Community Policing Plan....................................................... 37
     Recommendations for the Supplemental Review ...................... 38
APPENDIX I - OBJECTIVES, SCOPE, AND METHODOLOGY ....... 39
APPENDIX II - SCHEDULE OF DOLLAR-RELATED FINDINGS.... 41
APPENDIX III - QUESTIONED TRANSACTION DETAILS .......... 42
APPENDIX IV - CROW TRIBE OF INDIANS’ RESPONSE TO THE
   DRAFT REPORT................................................................. 45
APPENDIX V - OIG COMMENTS ON THE CROW TRIBE’S
   RESPONSE TO THE DRAFT REPORT ................................... 50
APPENDIX VI - COPS RESPONSE TO THE DRAFT REPORT. ...... 53
APPENDIX VII - OIG ANALYSIS AND SUMMARY OF ACTIONS
   NECESSARY TO CLOSE THE REPORT ................................. 62
     AUDIT OF OFFICE OF COMMUNITY ORIENTED
    POLICING SERVICES GRANTS AWARDED TO THE
             CROW TRIBE OF INDIANS
             CROW AGENCY, MONTANA

                         INTRODUCTION

      The Office of the Inspector General, Audit Division, has
completed an audit of Office of Community Oriented Policing Services
(COPS) grants awarded to the Crow Tribe of Indians (Tribe) of
Montana. The audit included four grants: (1) COPS Tribal Court Pilot
Program (TCPP) Grant No. 2005-HE-WX-0005 in the amount of
$441,000, (2) COPS Tribal Resources Grant Program (TRGP) Grant
No. 2007-HE-WX-0039 in the amount of $398,901, (3) COPS
Methamphetamine Initiative (Meth) Grant No. 2007-CK-WX-0313 in
the amount of $399,157, and (4) COPS Hiring Recovery Program
(CHRP) Grant Number 2009-RK-WX-0520 in the amount of $146,474.
The Tribe was awarded a total of $1,385,532 to implement the grant
programs, as shown in Exhibit 1.

                         EXHIBIT 1
      OFFICE OF COMMUNITY ORIENTED POLICING SERVICES
       GRANTS AWARDED TO THE CROW TRIBE OF INDIANS
                   COPS     AWARD     AWARD
   GRANT AWARD    PROGRAM START DATE END DATE AWARD AMOUNT
 2005-HE-WX-0005    TCPP   09/01/05  08/31/08 $    441,000
 2007-HE-WX-0039   TRGP    08/01/07  08/31/10      398,901
 2007-CK-WX-0313   METH    09/01/07  08/31/11      399,157
 2009-RK-WX-0520   CHRP    07/01/09  06/30/12      146,474
                                       Total:  $1,385,532
Source: COPS

       The purpose of the TCPP grant awarded to the Tribe was to
further develop the justice system. Budgeted items included partial
funding for three court positions, goods and services to assist
personnel, and 100 hours of evaluation services. The purpose of the
TRGP grant was to increase the visibility of Tribal police in the
community and increase vehicle patrols on the reservation. Budgeted
items included equipment, uniforms, and vehicles for tribal police
officers. The purpose of the Meth grant was to address partnership
development, prevention, training, and intelligence gathering.
Budgeted items included fully funding a Meth Project coordinator,
equipment and supplies for police work and for recording and storing
data related to meth usage, community events, overtime for officers


                                  1
participating in meth related work, meth training, and a program
evaluation. The purpose of the CHRP grant was to create jobs and
increase community policing capacity. Budgeted items included fully
funding one entry-level sworn officer for three years.

      The purpose of this audit was to determine whether
reimbursements claimed for costs under the grants were allowable,
supported, and in accordance with applicable laws, regulations,
guidelines, and terms and conditions of the grant, and to determine
program performance and accomplishments. The objective of our
audit was to assess risks and review performance in the following
areas: (1) internal control environment, (2) drawdowns, (3) grant
expenditures, including personnel and indirect costs, (4) budget
management and control, (5) matching, (6) property management,
(7) program income, (8) financial status and progress reports,
(9) grant requirements, (10) program performance and
accomplishments, and (11) monitoring of subgrantees and contractors.
In addition to the objectives above, for CHRP Grant
No. 2009-RK-WX-0520, we also reviewed performance in the following
areas: (1) application statistics, (2) officer type funded and
entry-level salary provisions, (3) supplanting, (4) retention plan, and
(5) community policing plan. We determined that matching, program
income, and monitoring of subgrantees were not applicable to these
grants.

Background

       The COPS Office was established as a result of the Violent Crime
Control and Law Enforcement Act of 1994 to assist law enforcement
agencies in enhancing public safety through the implementation of
community policing strategies in jurisdictions of all sizes across the
country. Community policing focuses on proactive collaborative efforts
to prevent and respond to crime, social disorder, and fear of crime.
COPS provides funding to state, local, and tribal law enforcement
agencies to hire and train community policing professionals, acquire
and deploy cutting edge crime-fighting technologies, and develop and
test innovative policing strategies.

      The TCPP and the TRGP are part of a series of programs created
to meet the needs of law enforcement in Native American
communities. In 2005, COPS appropriated just under $1 million
for the Tribal Court Program. The program partnered with the Bureau
of Justice Assistance (BJA) Tribal Court Assistance Program (TCAP) to
serve as a replacement funding source for TCAP grants and, as a


                                   2
result, the purpose of the 2005 TCPP was identical to the purpose of
the TCAP. The TCAP is one of the U.S. Department of Justice’s
primary initiatives for providing court-related support to tribal justice
systems. The program provides federally recognized American Indian
communities with resources to develop, implement, enhance, and
continue the operation of tribal judicial systems. The TRGP provides
funding directly to Federally Recognized Tribal jurisdictions with
established law enforcement agencies. TRGP was designed to expand
the implementation of community policing and meet the most serious
needs of law enforcement in tribal communities through a broadened
comprehensive program.

      From 1998 to 2007, COPS invested more than $448 million
nationwide to combat the spread of methamphetamine. COPS Meth
funding supports enforcement, training, and prevention activities
nationwide, but is concentrated in areas with the greatest need for
assistance in combating methamphetamine production, distribution,
and use. COPS also works directly with local law enforcement
agencies to craft innovative strategies, track and evaluate their
implementation, and disseminate results to other jurisdictions
confronting similar challenges.

       The CHRP is funded through the American Recovery and
Reinvestment Act (Recovery Act) of 2009, P.L.111-5. It provides
funding directly to law enforcement agencies to support newly-hired,
rehired, and/or retained career law enforcement officers in an effort to
create and preserve jobs, and to increase their community policing
capacity and crime prevention efforts. 2 Up to $1 billion in grant
funding was appropriated for this initiative through the Recovery Act.
On July 28, 2009, COPS announced its selection of 1,046 law
enforcement agencies as recipients of the $1 billion CHRP funding to
hire, rehire, and retain 4,699 officers. CHRP grants provide 100
percent funding for approved entry-level salaries and fringe benefits
for full-time officers for 36 months. At the conclusion of federal
funding, grantees must retain the sworn officer positions for a
minimum of 12 months.

      The Crow Tribe of Indians, originally called the Apsáalooke, has
approximately 11,000 members, 7,900 of whom reside on the Crow
Indian Reservation. The Reservation is located in south central


       2
         Officers retained are those officers who were, at the time of the application,
scheduled to be laid off on a future date as a result of state, local, or tribal budget
cuts.


                                          3
Montana and encompasses approximately 2.3 million acres. The
centralized business community for tribal members is the
unincorporated town of Crow Agency, which is the site of the Crow
Tribe Administration’s facilities. Two components of the Tribe were
most impacted by the grants: the Judicial Branch and the Police
Department.

       The Crow Indian Reservation was established by treaty in 1851.
The Tribe repealed its 1948 Constitution, replacing it with the Crow
Constitution and By-Laws of 2001, which established three branches of
government: the Executive, Legislative, and Judicial branches. The
purpose of the new Constitution was to provide separation of powers
and to establish an independent Tribal Court. The separate and
distinct judicial branch is specifically governed by the Crow Tribal Law
and Order Code.

      The Bureau of Indian Affairs (BIA) Police Department, Crow
Agency Office, has jurisdiction over Indians on the reservation. The
current police force consists of federal police officers paid under the
BIA Law Enforcement Services and tribal officers paid under the tribe’s
general fund. Both the tribal and federal police officers are supervised
by the BIA Chief of Police. Inside the Crow Reservation there are over
153 miles of state roads, 650 miles of BIA roads, 255 miles of earth
roads, 70 miles of gravel roads, and 155 miles of unimproved roads
that need to be patrolled.

Our Audit Approach

      We tested compliance with what we consider to be the most
important conditions of the grant. Unless otherwise stated in our
report, the criteria we audit against are contained in the COPS Grant
Owner’s Manuals and the grant award documents. We tested the
Tribe’s:

   • Internal control environment to determine whether the
     internal controls in place for the processing and payment of
     funds were adequate to safeguard grant funds and ensure
     compliance with the terms and conditions of the grants;

   • Grant drawdowns to determine whether grant drawdowns
     were adequately supported and if the Tribe was managing grant
     receipts in accordance with federal requirements;




                                   4
  • Grant expenditures to determine the accuracy and allowability
    of costs charged to the grants;

  • Budget management and control to determine the overall
    acceptability of budgeted costs by identifying any budget
    deviations between the amounts authorized in the budget and
    the actual costs incurred for each budget category;

  • Accountable property to determine whether the Tribe had
    effective procedures for managing and safeguarding assets
    acquired with grant funding;

  • Financial Status Reports and Program Progress Reports to
    determine if the required reports were submitted on time and
    accurately reflect grant activity;

  • Grant objectives and accomplishments to determine if the
    Tribe met or is capable of meeting the grants’ objectives;

  • Monitoring contractors to determine if the Tribe evaluated the
    contractors’ processes and procedures for administering the
    contracts; and

  •   CHRP grant application statistics to determine the
      completeness and accuracy of grantee information submitted in
      the CHRP application.

     These items are discussed in detail in the Findings and
Recommendations and Supplemental Review of 2009 COPS Hiring
Recovery Program sections of the report. Our audit objectives, scope,
and methodology are discussed in Appendix I.




                                  5
               FINDINGS AND RECOMMENDATIONS

     We found that the Tribe had inadequate receiving
     procedures. We also found the Tribe had questioned
     expenditures that were not allowable, not properly charged
     to the grant, not properly supported, or not properly
     classified. We identified transfers in direct cost categories
     in excess of 10 percent of the approved budget.
     Additionally, there were excess expenditures resulting from
     duplication. Equipment was not always properly
     monitored, identified as federally funded, used for the
     purposes specified by the grant, or verifiable. We found
     the Tribe did not obtain approval for sole source
     procurement. Further, the grants’ performance and
     accomplishments were limited in scope. Finally, we found
     the Tribe failed to adequately monitor a contractor. As a
     result, we identified questioned costs totaling $533,353
     and 7 management improvements.

Internal Control Environment

      We reviewed the Tribe’s financial management system, policies
and procedures, and Single Audit Reports to assess the Tribe’s risk of
non-compliance to laws, regulations, guidelines, and terms and
conditions of the grants. We also interviewed management, key
personnel, and individuals not employed by the Tribe with knowledge
of the grant programs, and observed accounting activities to further
assess risk.

Single Audit

      According to Office of Management and Budget (OMB) Circular
A-133, an entity expending more than $500,000 in federal funds in a
year is required to perform a Single Audit annually, with the report due
no later than nine months after the end of the fiscal year. In fiscal
year (FY) 2010, the Tribe’s Single Audit Report indicated that
$26,125,388 in federal funds were expended by the Tribe, which
required performance of a Single Audit. The Tribe’s fiscal year runs
from October 1 through September 30. Therefore, the Single Audit
Report for the Tribe is due by June 30 of the following year.

     We received the Tribe’s Single Audit Reports for FYs 2009 and
2010. The 2009 Single Audit was completed and signed by the
independent auditor on June 24, 2010. However, the FY 2009 SF-SAC


                                   6
Data Collections Form for Reporting on Audits was not received until
September 10, 2010, more than two months late. The FY 2010 Single
Audit Report was submitted timely on June 29, 2011.

      The FY 2010 Single Audit Report indicated two findings related to
financial statements, which addressed decentralized cash collections
and loan testing in the Tribal Credit Department, and one finding
related to federal programs, which addressed failure to perform
background checks for employees at the Crow Nation Wellness Center.
We determined that none of the findings were crosscutting to federal
awards within our scope.

Financial Management System

      We reviewed the Tribe’s financial management system and
interviewed Tribe officials. We found that procurement and payment
procedures required multiple levels of approval and the payroll system
ensured timely and accurate records and payment. Additionally,
according to Tribe officials, grant administration procedures required
both the grant program director and a designated “in charge”
accountant to monitor compliance with grant terms and conditions.

       However, we identified three significant lapses in the Tribe’s
internal controls related to procurement, receiving, and recordkeeping,
which impact the administration of the grants. First, the Tribe’s
accountants indicated they checked the grant budget prior to
authorizing a purchase. However, we identified an instance where the
budget used by the Tribe’s accountants did not match the budget
approved by the COPS Office. This resulted in authorized purchases
that were not allowable under the grant. Second, receiving procedures
were not adequate, as there were not sufficient controls to ensure that
the items and services billed matched those received. We found that
there were no written policies and procedures for receiving and there
was no central receiving or formal documentation to confirm receipt.
Third, we identified an issue with the reclassification of payroll entries.
“In charge” accountants had access to the entire accounting system,
including the ability to correct the fund codes for overtime
expenditures. We identified one instance where a lump sum adjusting
entry—an entry that was intended to reclassify multiple transactions
using one entry—was used to move overtime expenditures into the
grant fund, which resulted in a reclassification of some overtime funds
that were already charged to the grant. This led to the grant being
double charged for some overtime hours. The ability to reclassify
transactions without confirming which fund paid for the original


                                    7
transaction led to double overtime charges for Grant
No. 2007-CK-WX-0313.

Drawdowns

      The four grants in the scope of our audit had drawdown activity.
Tribe officials stated drawdowns were requested on a reimbursement
basis for paid expenditures and the requests were usually quarterly.
We reviewed grant accounting records and compared expenditures to
actual drawdowns. For Grant Nos. 2007-HE-WX-0039 and
2007-CK-WX-0313 we found drawdowns did not exceed expenditures
by any material amount. For Grant No. 2005-HE-WX-0005, we found
two quarters had cumulative drawdowns that exceeded cumulative
expenditures by $141 and $1,470. According to Tribe officials the
errors were the result of expenditures being allocated to the grant and
then reassigned to another fund at a later date. In each instance the
error was corrected in the following quarter. We determined this was
only a minor issue that was quickly corrected. However, for Grant
No. 2009-RK-WX-0520 we identified an excess drawdown that was not
immediately corrected. Specifically, the drawdown on February 1,
2011, exceeded grant expenditures for the period by $5,692. This
resulted in cumulative drawdowns exceeding cumulative expenditures
by $4,228. The difference was not corrected in the following quarter,
meaning as of the start of our fieldwork the grant drawdown exceeded
grant expenditures by $4,228, as shown in Exhibit 2.




                                   8
                       EXHIBIT 2
    COMPARISON OF DRAWDOWNS TO ACCOUNTING RECORDS
             FOR GRANT NO. 2009-RK-WX-0520 3
                                   GRANT                             CUMULATIVE
                               EXPENDITURES       DIFFERENCE         DIFFERENCE
                              PER ACCOUNTING       BETWEEN            BETWEEN
  DATE OF        AMOUNT        RECORDS FOR        DRAWDOWNS          DRAWDOWNS
 DRAWDOWN        DRAWN          DRAWDOWN               AND               AND
  PER OJP        PER OJP          PERIOD          EXPENDITURES     EXPENDITURES 4

 06/25/2010       $ 9,902        $11,432              $1,531           $ 1,530

 09/22/2010         9,115           9,049                (66)            1,464

 02/01/2011       15,977           10,284              5,692            (4,228)

 04/08/2011         1,604           1,604                    0          (4,228)
Source: COPS and Crow Tribe of Indians

       According to Tribe officials the excess drawdown was due to
incorrectly allocating overtime salaries to the grant. The error was not
identified until after the drawdown request for the following quarter
was submitted. Tribe officials stated that the charges had since been
reversed. At the time of our audit, the subsequent drawdown had not
been submitted; as a result, we could not confirm if the excess
drawdowns had been corrected.

Transaction Testing

       We reviewed the general ledger account for each grant and
identified a total of 186 direct cost transactions charged to the four
grants audited.

      For Grant No. 2005-HE-WX-0005, we selected 30 of the
54 direct cost transactions (56 percent) for review. During our review,
we identified 27 contract expenditures, which were unallowable under
the grant. The approved grant budget included $208,000 in personnel
costs. The intended hires included a Tribal Prosecutor, a Tribal
Defender, and a Director for the Peacemaker Program. Instead of
hiring the three court personnel, the Tribe contracted with Montana

      3
          Throughout this report, differences in the total amounts are due to rounding.
      4
          Negative amounts indicate that drawdowns exceeded expenditures. The
cumulative difference between drawdowns and expenditures does not match the
difference between drawdowns and expenditures for the drawdown period because
there were minor differences (less than $1) between drawdowns and expenditures in
prior periods (not shown) that account for the difference.


                                            9
Legal Services Association (MLSA) and Elk River Law Offices to
perform legal services. According to Tribe officials, the Tribe
contracted for legal services rather than hiring the positions approved
under the grant because it was difficult for the tribe to bring lawyers in
house. Since contract costs for legal services were not included in the
grant budget, these contract services were unallowable under the
grant. As a result, we question the contract expenditures for legal
services amounting to $128,537 paid to Elk River Law Offices and
$57,750 to Montana Legal Services as unallowable.

      In addition, the MLSA invoices in our sample did not include any
details regarding hours worked or tasks performed. This information
was not sought by the Tribe prior to payment, meaning receipt of
service was not verified. The issue is discussed in detail in the
Monitoring Contractors section of this report.

       For Grant No. 2007-HE-WX-0039, we selected 37 of the 65
direct cost transactions (57 percent) for review. We found that two
transactions were improperly classified as “Vehicle Costs” that should
have been classified as “Training” and “Uniforms/Safety Gear.” We
also identified three transactions totaling $1,589 that were not
supported by an invoice or other documentation indicating that the
expense was incurred. As a result we question the $1,589 as
unsupported.

       For Grant No. 2007-HE-WX-0039, we also identified
12 transactions totaling $254,066 for equipment and supplies that
were used to support the Fish and Game or Natural Resource
Departments, rather than the Tribal Police. The grant terms and
conditions stipulate that equipment, technology, and vehicles
purchased with this grant may only be used for law enforcement
activities that exclusively benefit the grantee and the population it
serves. As discussed in the Program Performance and
Accomplishments section of this report, we determined the Fish and
Game Department does not meet the requirements to be classified as
a law enforcement entity. Additionally, per the grant application the
Tribe specifically applied for funding for the Tribal Police to increase its
capabilities and visibility within the community. As a result, we
consider the expenditures used in support of the Fish and Game and
Natural Resource Departments totaling $254,066 to be unallowable.
However, this amount includes the three unsupported transactions
totaling $1,589 discussed in the paragraph above. As a result, we are
questioning the remaining transactions totaling $252,478 as
unallowable.


                                     10
       For Grant No. 2007-CK-WX-0313, we selected 30 of the 67
transactions (45 percent) for review. We identified one transaction
totaling $6,499 that was not supported by an invoice or other
documentation indicating that an expense was incurred. As a result
we question the $6,499 as unsupported. We also identified a second
unsupported transaction in our sample. However, the questioned
costs associated with that transaction are included in the Allowability
of Travel and Training Expenditures section of this report.

Allowability of Travel and Training Expenditures

     For Grant Nos. 2005-HE-WX-0005, 2007-HE-WX-0039, and
2007-CK-WX-0313, we reviewed allowability for all travel and training
expenditures, including transactions that were not included in our
sample. There were no travel and training expenditures for Grant
No. 2009-RK-WX-0520.

       For Grant No. 2005-HE-WX-0005, we identified travel and
training expenditures for an employee of Elk River Law Offices totaling
$1,369. In the Transaction Testing section of this report, we
determined that the contracted services provided by Elk River Law
Office were not approved or allowable expenditures. Therefore,
related costs, including training and travel expenditures incurred by
the contractor were also not allowable under the grant. As a result,
we question the travel and training expenditures related to the
contractor totaling $1,369 as unallowable.

       For Grant No. 2007-HE-WX-0039, per the grant terms and
conditions, training funds may only be used for law enforcement
activities that exclusively benefit the grantee agency and the
population it serves. According to the grant application, tribal police
officers supervised by the Chief of Police were the intended recipients
of the grant resources. Based on our review, we found that training
costs totaling $12,424 were charged to the grant for personnel that
were not tribal police officers, including persons working for the Fish
and Game Department. As a result, we are questioning the travel
costs associated with personnel that were not tribal police officers
totaling $12,424 as unallowable. In addition, we identified a $1,095
credit card reclassification entry for travel that did not include
sufficient supporting information identifying the traveler’s name, the
date the travel occurred, or the purpose of the travel. As a result, we
are questioning the $1,095 as unsupported.



                                   11
       For Grant No. 2007-CK-WX-0313, per the Grant Owner’s Manual,
the COPS Meth Initiative will fund grant-related travel costs for the
grantee agency to attend training specified in the application. Per the
grant application, sworn officers and the Meth Coordinator should
complete 20 hours of training per year in meth related subjects.
Therefore, only law enforcement officers and the Meth Coordinators
were allowed to incur travel and training expenditures under the
grant. Based on our review, we found that travel and training costs
totaling $3,784 were charged to the grant for non-law enforcement
personnel and persons other than the Meth Coordinator. As a result,
we are questioning the travel and training costs for non-law
enforcement personnel totaling $3,784 as unallowable.

      In total, we identified $1,095 in unsupported and $17,577 in
unallowable travel and training costs charged to Grant
Nos. 2005-HE-WX-0005, 2007-HE-WX-0039, and 2007-CK-WX-0313.

      Appendix III contains a detailed list of questioned costs identified
during transaction testing.

Budget Management and Control

       For Grant No. 2005-HE-WX-0005, the tribe was awarded funds
totaling $441,000. However, as of August 31, 2008, the grant end
date, the Tribe had only expended $275,628 of the funds. As a result,
the remaining funds totaling $165,372 were de-obligated. For Grant
No. 2007-HE-WX-0039 all funds awarded totaling $398,901 were
expended. At the time of our audit, Grant Nos. 2007-CK-WX-0313
and 2009-RK-WX-0520 had not yet expired and had $18,035 and
$67,716 in remaining funds respectively.

      According to 28 C.F.R. 66.30, for state and local governments
prior approval of the awarding agency is required if cumulative
transfers among direct cost categories exceed or are expected to
exceed 10 percent of the current total approved budget, whenever the
awarding agency’s share exceeds $100,000. The 10-Percent Rule was
applicable for all four COPS grants awarded to the Tribe that were
included in our audit. We determined the Tribe did not transfer funds
among direct cost categories in excess of 10 percent for Grant Nos.
2007-HE-WX-0039, 2007-CK-WX-0313, and 2009-RK-WX-0520.
However, for Grant No. 2005-HE-WX-0005, we determined the Tribe
transferred funds among direct cost categories in excess of 10 percent,
as shown in Exhibit 3.



                                   12
                          EXHIBIT 3
                  GRANT NO. 2005-HE-WX-0005
               BUDGET MANAGEMENT AND CONTROL

                                              ACTUAL      AMOUNT OVER
  BUDGET CATEGORY       GRANT BUDGET       EXPENDITURES     BUDGET
Personnel                 $208,000            $ 59,697
Fringe Benefits                    -             6,457      $     6,457
Travel/Training             80,000               3,755
Equipment                     5,100                  -
Supplies                    12,000                 120
Contractors                 20,000             186,287          166,287
Other                         6,000                  -
TOTAL DIRECT COSTS       $331,100            $256,316       $172,744
Source: OJP, COPS, and Crow Tribe of Indians

      The approved budget for Grant No. 2005-HE-WX-0005 included
contractor costs of $20,000; however, the contract costs approved in
the budget were specifically to fund an evaluation of the Tribe’s grant
program. As stated previously, instead of hiring three court personnel
approved for the grant, the Tribe contracted with Montana Legal
Services Association (MLSA) and Elk River Law Offices to perform legal
services. As a result, the Tribe’s contract expenditures charged to the
grant totaled $186,287, which exceeded the amount budgeted for
contractor costs by $166,287. There was no evidence or prior written
approval that the Tribe requested to transfer the approved personnel
costs to the budgeted amount for contract costs. We also found that
although Fringe Benefits were not listed as an approved budget
category, the Tribe charged fringe benefits totaling $6,457 to the
grant. In total, the Tribe exceeded the approved budget by $172,744.
As a result, we identified total unapproved transfers between budget
categories totaling $128,644 that were in excess of 10 percent of the
award. However, we are not questioning the $128,644 in unapproved
transfers among budget categories in excess of 10 percent of the total
award as we have previously questioned the $186,287 in contract
expenditures in the Transaction Testing section and the $6,457 in
unallowable fringe benefits in the Headcount and Payroll section of this
report.

      Issues related to budget management were, at least in part,
compounded by a lapse in internal controls. The Tribe’s accountants
indicated they checked the grant budget prior to authorizing a
purchase. However, the 2005-HE-WX-0005 budget the accountants
referenced did not match the budget approved by the COPS Office.




                                     13
This resulted in authorizing purchases that were not approved
expenditures.

Headcount and Payroll

       Three of the four grants included in our audit included personnel
expenditures. The budget for Grant No. 2005-HE-WX-0005 included
$208,000 to hire three new employees and pay 50 percent of the
salaries for the new hires for 2 years. The Tribe was responsible for
paying the remaining 50 percent of salaries for the three new
employees. The three new employees included under the grant were:
(1) Tribal Prosecutor, (2) Tribal Defender and (3) Director of the
Peacemaker Program. The budget for Grant No. 2007-CK-WX-0313
included $107,640 for 2.5 years of salary and fringe benefits for a
Program Director and $56,000 for overtime for sworn officers. Payroll
records indicated that the Director position was filled and the sworn
officers received overtime payments. The budget for Grant
No. 2009-RK-WX-0520 included $146,474 for 3 years of salary and
fringe benefits for one sworn officer. A detailed review of this position
is included in the Officer Type Funded and Entry-Level Salary
Provisions section of this report.

Unallowable Position

      For Grant No. 2005-HE-WX-0005, the Tribal Prosecutor was the
only position filled. However, the Tribal Prosecutor only worked for the
Tribe for approximately 6 months, after which the vacant position was
never filled. A Tribal Defender and a Program Director for the
Peacemaker Program were never hired. Tribe officials stated that it
was difficult to find lawyers to bring in-house and other priorities
prevented the Peacemaker Program from being fully developed. The
actual in-house positions paid using grant funds included the Tribal
Prosecutor, a Staff Attorney that performed some prosecution duties,
and a Court Administrator. The Court Administrator position was not
included in the grant budget, and there was no evidence that the Tribe
requested or received approval from COPS to modify the positions
approved in the grant award. Unapproved expenditures for the Court
Administrator position charged to the grant included $19,337 in wages
and $2,169 in fringe benefits. As a result, we question salaries and
fringe benefits totaling $21,506 paid to the Court Administrator as
unallowable.




                                   14
Duplicate Payroll Charges

      We identified $6,125 in duplicate payroll charges paid under
Grant No. 2007-CK-WX-0313. The duplication exposed a lapse in
internal controls that allowed accounting personnel to make a lump
sum journal entry that moved salary expenses to the grant fund, some
of which had previously been charged directly to the grant. As a
result, we question $6,125 in excess salaries and fringe benefits as
unallowable.

Unallowable and Excessive Fringe Benefits

       For Grant No. 2005-HE-WX-0005, fringe benefits were not
included in the approved budget. 5 However, the Tribe charged $6,457
in fringe benefits for the three employees paid under the grant. This
amount included $2,169 in fringe benefits paid for the Court
Administrator position that was questioned previously in the
Unallowable Positions section of this report. As a result, we question
the remaining fringe benefits totaling $4,288 as unallowable.

      We also identified $702 in excess Fringe Benefits charged to
Grant No. 2009-RK-WX-0520. The excess was the result of Worker’s
Compensation being added to the fringe benefits for the police officer
funded. Worker’s Compensation was not identified as an allowable
benefit in the Financial Funding Memo. These costs are included as
unallowable costs in the Officer Type Funded and Entry-Level Salary
Provisions of the Supplemental Review section of this report.

Accountable Property

      OMB Circular A-133 requires grantees to implement controls to
ensure property purchased with federal funds is properly accounted for
and safeguarded against loss from unauthorized use or disposition. As
noted in the Financial Management System section of this report, the
Tribe had no written policies and procedures for receiving, and there
was no central receiving or formal documentation to confirm receipt.
We reviewed all accountable property, which the Tribe identified as
property with value over $5,000.

     According to the Tribe’s Financial Management System Policies
and Procedures, asset acquisitions, transfers, dispositions and

       5
          According to the grant application, the tribe intended to pay fringe benefits
as a local match, although matching costs were not identified in the approved budget.


                                          15
depreciation will be entered in a Fixed Assets Spreadsheet. Of the
twenty accountable property items funded by the grants included in
our audit, only six were included in the Fixed Asset Spreadsheet. The
Tribe’s policy was to also use the spreadsheet to show which items
were federally funded. Therefore, only six of the twenty items were
identified as federally funded. It appears the other 14 accountable
property items funded by the grants included in our audit were not
entered into the fixed asset inventory list due to the lack of proper
receiving procedures.

       Grant No. 2007-HE-WX-0039 included accountable property
consisting of ten vehicles. Eight of these vehicles were not used as
specified in the grant. In the grant application, the vehicles were to be
used to expand the Tribal Police capabilities and to make the
tribal officer more visible. The vehicles were used by the Fish and
Game Department rather than the Tribal Police during the entire grant
period and subsequent to the end of the grant. Since the vehicles
were not used as specified in the grant, we question the costs of these
eight vehicles. Additionally, we found one of the eight vehicles was
not in the Tribe’s possession. Rather, the vehicle was located on a
Tribal member’s property and was not in working condition. The
questioned costs totaling $237,384 for these eight unallowable
vehicles are included in the Transaction Testing section of this report.

       For grant 2007-CK-WX-0313, we attempted to verify all
accountable property; however, two thermal cameras were not shown
in the inventory provided and not shown as federally funded. Although
the Crow Tribe allowed us to look at two thermal cameras that they
believed were funded by the grant, we could not verify that these were
the items purchased under the grant. As a result, we question the
costs of these unverifiable items totaling $10,316 as unsupported.

Indirect Costs

      One of the four grants in the scope of our audit included indirect
costs as part of the approved grant budget. The award for Grant
No. 2005-HE-WX-0005 included $109,900 in indirect costs. The
approved indirect cost rate was 33 percent, which equals approved
indirect costs of $109,900 divided by approved direct costs of
$331,100. The Tribe charged a total of $19,312 in indirect costs to the
grant, which was $90,588 less than budgeted. This was the result of
two factors: (1) when the grant expired, the Tribe had only expended
$256,315 in direct costs; and (2) we calculated the actual indirect cost
rate by dividing actual indirect costs by actual direct costs resulting in


                                   16
a rate of 7.5 percent, which was well below the approved rate. Since
the Tribe only charged the actual indirect cost rate to the grant, we
are not taking exception to the excess indirect cost rate that was
approved in the grant award.

Reports

      We reviewed the periodic financial status reports (FSRs) and the
Categorical Assistance Progress Reports, and found the FSRs were
generally timely and accurate overall, but included a number of
discrepancies when broken down by period. 6 The progress reports
were timely with the exception of one missing report and one late
report, and the submitted reports appeared accurate. We also
reviewed the Recovery Act reports, which were required to be filed for
Grant No. 2009-RK-WX-0520. The reports were both timely and
appeared accurate.

Financial Status Reports

      Prior to October 1, 2009, FSRs were due within 45 days of the
end of each quarter. After October 1, 2009, all FSRs are due within
30 days of the end of each quarter. We reviewed all of the FSRs
submitted during the award period and found they were generally
timely. For Grant No. 2005-HE-WX-0005, we determined 13 of the
14 FSRs submitted were on time; for Grant No. 2007-HE-WX-0039, we
determined 12 of the 13 FSRs submitted were on time; for Grant
No. 2007-CK-WX-0313, we determined 14 of 15 of the FSRs submitted
at the time of our audit were on time; and for Grant
No. 2009-RK-WX-0520, we determined all seven of the FSRs
submitted at the time of our audit were on time. The late reports for
Grant Nos. 2005-HE-WX-0005, 2007-HE-WX-0039, and
2007-CK-WX-0313 are shown in Exhibit 4.




       6
         Effective October 1, 2009, COPS switched from use of SF-269 Financial
Status Reports (FSRs) to SF-425 Federal Financial Reports (FFRs). For consistency,
we use the term “FSR” throughout this report when discussing any quarterly financial
reports.


                                         17
                            EXHIBIT 4
                FINANCIAL STATUS REPORT HISTORY
         REPORT PERIOD               FSR DUE          DATE
        FROM – TO DATES               DATE          SUBMITTED        DAYS LATE
 Grant No. 2005-HE-WX-0005
                                               7
      10/01/08 – 12/31/08           11/29/08        01/28/09            60
 Grant No. 2007-HE-WX-0039
      10/01/07 – 12/31/07            02/14/08       03/24/08            39
 Grant No. 2007-CK-WX-0313
      10/01/07 – 12/31/07            02/14/08        2/21/08                7
Source: COPS

       For Grant No. 2005-HE-WX-0005, the original award end date
was August 31, 2008. According to the letter notifying the Tribe that
the grant was expired, within 90 days following the award end
date the Tribe was required to submit the final FSR, meaning it was
due on November 29, 2008. The Tribe submitted two FSRs marked as
the ‘Final Report.’ The first of the two reports was submitted on
October 24, 2008, which covered the third quarter of 2008, a date
range that includes the August 31, 2008, end date. This submission
met the 90-day requirement. The second of the two reports was
submitted on January 28, 2009, 60 days after the Final Report due
date. This report covered the fourth quarter of 2008, reported $0.70
in federal share of outlays, which was noted as a closeout adjustment.
As a result, it appears the Tribe did not submit the final report late;
rather, the Tribe submitted the results of a minor adjusting entry in a
format identical to the final report 60 days after all information was
required to be submitted.

       For Grant No. 2007-HE-WX-0039, there was no communication
between the COPS Office and the Tribe regarding the report that was
seven days late. For Grant No. 2007-CK-WX-0313, the COPS office
sent a delinquency notice to the Tribe on February 29, 2008, indicating
the FSR must be submitted within seven days of the date of the notice.
The Tribe did not provide a verbal response, but subsequently
submitted the report 24 days later. For both Grant Nos.
2007-HE-WX-0039 and 2007-CK-WX-0313, the next 11 and 13 reports
respectively were submitted timely, which demonstrates that any issue
resulting in late submissions was resolved prior to our audit.




      7
         The grant expired on August 31, 2008. The previous submission on
October 24, 2008 should have served as the final FSR for this grant.


                                       18
      We also reviewed all of the submitted FSRs for accuracy and
found while the cumulative expenditures per the accounting records
matched the cumulative expenditures per the FSRs, there were a
number of periodic differences between the accounting records and the
FSRs. Each grant within our scope contained instances where the FSR
either understated or overstated period expenditures, as shown in
Exhibit 5.
                              EXHIBIT 5
             FINANCIAL STATUS REPORT ACCURACY
                                    PERIODIC                                  DIFFERENCE
          FSR                     EXPENDITURES                                 BETWEEN
         REPORT      PERIODIC         PER         CUMULATIVE    CUMULATIVE   PERIODIC FSR
 FSR     PERIOD    EXPENDITURES    ACCOUNTING        FSR        ACCOUNTING   & ACCOUNTING
 No.    END DATE     PER FSR        RECORDS      EXPENDITURES     RECORD       RECORDS
2005-HE-WX-0005
  14    12/31/08          $1          $1,650      $275,628      $277,278       $(1,649)
 ADJ    09/30/09            0        (1,650)       275,628        275,628         1,650
2007-HE-WX-0039
  10    12/31/09      $5,752          $6,201      $361,447      $361,896         $(449)
  11    03/31/10      11,851          16,906       373,298        378,802       (5,055)
  12    06/30/10      11,717          11,717       385,015        390,519             0
  13    09/30/10      13,886           8,382       398,901        398,901         5,504
2007-CK-WX-0313
  3     03/31/08     $20,075        $21,293        $24,139        $25,357      $(1,218)
  4     06/30/08     111,404        110,186        135,543        135,543         1,218
2009-RK-WX-0520
  6     12/31/10     $10,932          $5,561       $65,961        $60,589        $5,371
  7     03/31/11       4,170           3,709        70,130         64,298           461
  8     06/30/11       5,421          11,253        75,551         75,551       (5,832)
Source: COPS and Crow Tribe of Indians

       Tribe officials attributed differences to reversing entries, which
resulted from removing expenditures that were not allowable. For
Grant No. 2005-HE-WX-0005, the Tribe charged $1,650 for contracted
legal services on October 15, 2008, 45 days after the grant expired,
which resulted in cumulative expenditures per the accounting record
exceeding the final cumulative FSR figure for over 11 months. On
September 30, 2009, an adjusting entry reversed the transaction and
included a notation stating that the transaction was incorrectly posted
to a closed fund and moved to the General Fund. For Grant
No. 2009-RK-WX-0520, according to Tribe officials, the periodic
differences were due to incorrectly allocating overtime salaries to the
grant, the same problem identified in the Drawdowns section of the
report. The charges were reversed, and the correction was reflected in
the FSR with a report period end date of June 30, 2011.


                                          19
Categorical Assistance Progress Reports

      According to 28 C.F.R. Part 66, grantees shall submit annual
performance reports, unless the granting agency requires semi-annual
reports. Annual reports are due 90 days after the grant year and
semi-annual reports are due 30 days after the quarter. However,
there were instances when COPS notified the Tribe that annual
progress reports were due 30 days after the end of the previous
calendar year. We used the general C.F.R. guideline, unless COPS
provided an alternative deadline for our analysis of progress report
timeliness.

      We determined Tribe accounting personnel collected information
from the grant managers to prepare progress reports. Tribe
accounting personnel then completed the progress reports
electronically using the COPS online submission form. Some progress
reports were submitted by grant, while other reports were submitted
by year. For example, quarterly progress reports for Grant
No. 2009-RK-WX-0520 were standalone in all but one instance, while
the progress reports for calendar years (CY) 2008, and 2009 included
Grant Nos. 2007-HE-WX-0039 and 2007-CK-WX-0313 in a single
document.

    Generally, we found progress reports were submitted timely.
However, we identified two exceptions, as shown in Exhibit 6.




                                 20
                             EXHIBIT 6
                  PROGRAM PROGRESS REPORT HISTORY
 RPT     REPORT PERIOD
 NO .   FROM – TO DATES                DUE DATE        DATE SUBMITTED        DAYS LATE
2005-HE-WX-0005
  1    09/01/05-08/31/06               12/12/06        Never submitted
  2    1/1/07 to 12/31/07               4/01/08           5/14/08                43
2007-HE-WX-0039
  1    01/01/07-12/31/07               04/01/08            05/14/08              43
  2    01/01/08-12/31/08               04/01/09            01/29/09               0
  3    01/01/09-12/31/09               01/30/10            01/05/10               0
  4    01/01/10-08/31/10               09/30/10            09/22/10               0
2007-CK-WX-0313
  1    01/01/07-12/31/07               04/01/08            05/14/08              43
  2    01/01/08-12/31/08               04/01/09            01/29/09               0
  3    01/01/09-12/31/09               01/30/10            01/05/10               0
  4    01/01/10-12/31/10               01/30/11            01/11/11               0
2009-RK-WX-0520
All Progress Reports within our scope were submitted timely.
  Source: COPS

        COPS sent a letter to the grantee dated November 7, 2006,
  requesting a report for the period September 2005 to August 2006,
  which was due on December 12, 2006. We did not see any evidence
  that the Tribe completed or submitted the report. The progress report
  for CY 2007 included performance information for Grant
  Nos. 2005-HEWX-0005, 2007-HE-WX-0039 and 2007-CK-WX-0313
  and was due on April 1, 2008. 8 The Tribe submitted the report on May
  14, 2008, 43 days late. Every subsequent report, both annually and
  quarterly, for the grants within our scope was submitted on time,
  which demonstrates that any issue resulting in late submissions was
  resolved.

        We evaluated statistical data for progress reports across all
  years reported and determined that progress reports were completed
  in a survey format through yes/no responses and 1-10 rating scales.
  The final progress report for Grant No. 2007-HE-WX-0039 included a
  ‘check all that apply’ section regarding community partnerships
  developed or enhanced as a result of the project. The progress
  reports submitted in 2011 for Grant No. 2009-RK-WX-0520 included
  space for a narrative explanation regarding how COPS funding had

         8
            The CY 2007 Progress Report included a request for information regarding
  Grant No. 2005-HE-WX-0005. However, this request does not replace the missing
  report for period September 2005 to August 2006.


                                           21
enhanced community policing. We determined reports for the two
most recent years contained all required performance data for Grant
No. 2007-HE-WX-0039, 2007-CK-WX-0313, and 2009-RK-WX-0520.
We also did not see any indication that the information contained
within these reports was inaccurate.

Recovery Act Reporting

      For Grant No. 2009-RK-WX-0520, the grantee was also required
to report on use of Recovery Act funds provided through this award.
In accordance with Section 1512(c) of the Recovery Act, the recipient
agrees that not later than 10 days after the end of each calendar
quarter, each recipient that received Recovery Act funds from a federal
agency shall submit a report to that agency that contains:

   (1)    the amount of recovery funds received that were expended
         or obligated to projects or activities, and

   (2)   an estimate of the number of jobs created and the number of
         jobs retained by the project or activity.

       Tribe accounting personnel were responsible for compiling and
submitting Recovery Act reports electronically through the
RecoveryAct.gov website. The Tribe had submitted seven consecutive
quarterly reports at the time of our audit. The Recovery Act website
posts a quarterly list of Recovery Act grant recipients that were late
reporters. We reviewed a sample of two of these reports since the
start of the grant. The grant did not appear on either list. Therefore,
it appears the Crow Tribe submitted timely reports. Cumulative
expenditures of $70,130 reported in the quarter ending on March 31,
2011, was the same figure reported in the period’s FSR. Actual
expenditures were $64,298, meaning the Tribe over reported
expenditures by $5,832. Again, this was the result of incorrectly
allocating overtime salaries to the grant, and the charges were
reversed. We were able to confirm the correction shown on the
subsequent FSR. The reports indicate that one new job was created
and retained, which corresponds with the Tribe’s payroll records.

Compliance with Grant Requirements

      We reviewed grant requirements, which included the special
conditions attached to each grant award and the applicable COPS
Grant Owner’s Manual for each grant. For Grant
No. 2005-HE-WX-0005, there was no Grant Owner’s Manual, meaning


                                  22
we referenced the applicable program requirements, laws, orders,
regulations, or circulars identified in the special conditions. We
determined there was one key grant requirement applicable to all four
grants: grant funds are to supplement, not supplant, currently
committed funds.

       The following criterion applied to Grant Nos. 2005-HE-WX-0005,
2007-HE-WX-0039, and 2009-RK-WX-0520: personnel and equipment
funded under the grant may only be involved in activities or perform
services that exclusively benefit the grantee agency and the population
it serves. Both Grant Nos. 2007-HE-WX-0039 and 2009-RK-WX-0520
include an additional provision for enhancing community policing.

      The following criterion applied to Grant Nos. 2005-HE-WX-0005,
2007-HE-WX-0039, and 2007-CK-WX-0313: sole source
procurements in excess of $100,000 must be approved by COPS prior
to procurement.

      Additionally, for grant 2009-RK-WX-0520, the grant award
included three conditions, two of which were specific to Recovery Act
funds: (1) the grantee must retain all CHRP officer positions for a
minimum of 12 months at the conclusion of the grant; (2) the grantee
agrees to comply with extensive accountability and transparency
requirements specific to Recovery Act funds; and (3) the grantee
agrees to track Recovery Act funds separately from all other funds.

       We identified a number of instances where the Tribe did not
comply with the conditions outlined above. For Grant
No. 2005-HE-WX-0005, we determined that the Tribe did not submit a
sole source justification to COPS for approval prior to a sole source
procurement in contracted legal services for $128,537. The decision
to use sole source procurement was supported by the Tribe’s Financial
Management System Policy and Procedure manual, which stated that
supplies or services may be procured on a noncompetitive basis when
obtaining professional contracts that require specific expertise in which
the stability and reliability of the provider is of great importance, such
as attorneys. However, the Tribe still had an obligation to notify COPS
prior to obligating the funds.

      For Grant No. 2007-HE-WX-0039, we determined there was an
instance when grant funded expenditures did not exclusively benefit
the grantee agency and the community policing plan was not
enhanced, as outlined in Program Performance and Accomplishment
section. Accordingly, we question the related equipment and supplies


                                   23
expenditures in the amount of $254,066, as detailed in the Transaction
Testing section of this report. For Grant No. 2007-CK-WX-0313, it
appears the Tribe was compliant with the two provisions specific to the
grant.

      For Grant No. 2009-RK-WX-0520, the Supplemental Review
section of the report includes an analysis of potential supplanting, the
Tribe’s community policing plan, and the Tribe’s retention plan.
Accountability and transparency requirements are reviewed in the
Reports section above. Regarding the requirement to track Recovery
Act funding separately, a fund accounting system allowed the Tribe to
track grant-specific, Recovery Act expenditures independently of other
funds.

Program Performance and Accomplishments

      The goals and objectives for each grant and the degree to which
each grant met those goals and objectives are detailed below.
According to award documentation, we determined Grant
No. 2007-CK-WX-0313 generally met the program goals, while the
other three grants presented issues that potentially limited grant
performance and accomplishments.

Grant No. 2005-HE-WX-0005

       Grant No. 2005-HE-WX-0005, in the amount of $441,000, was
funded by the TCPP, which provided federally recognized American
Indian communities with resources to develop, implement, enhance,
and continue the operation of tribal judicial systems. Tribe officials
indicated that prior to the initiation of the grant, judicial staff with
professional qualifications were limited and judicial services were
deficient. The Tribe’s goal for this grant was to assist in developing a
stable, effective, balanced, professional, integrated court and justice
system which incorporates tribal culture and traditions. Specifically,
the grant funds were to be used to establish the Office of the Tribal
Prosecutor, including hiring a Prosecutor; establish the Office of the
Tribal Defender, including hiring a Defender; and establish the
Peacemaker Program, including hiring a Program Director. The
grant was also intended to fund training opportunities for four
employees, including the three intended grant-funded personnel and a
Peacemaker Judge, office equipment and supplies, and grant
evaluation services. The grant start date was September 1, 2005, and
the grant end date was August 31, 2008.



                                   24
       We found that the intended hires were either not made or were
not retained. A Tribal Prosecutor was hired. However, the position
was maintained for just over six months. A Tribal Defender and a
Program Director for the Peacemaker Program were never hired. Tribe
officials stated that it was difficult to find lawyers to bring in house and
other priorities prevented the Peacemaker Program from being fully
developed. Training should have served to improve the delivery of
program services. However, so little of the training budget was
expended – only $3,755 of the $80,000 budgeted – that the value of
the training was severely limited. The Tribe never conducted the
program evaluations. Some of the expenditures were for services not
identified in the goals, primarily the contracted legal services totaling
$186,287 outlined in the Budget Management and Control section of
this report. The grant ended prior to expending all of the funds and
$165,372 was deobligated. Tribe officials indicated that the decision
not to extend the grant resulted from the inability to secure the
positions funded under the grant.

      While the funds were not properly allocated in accordance with
the approved budget and only a portion of the available funds were
expended, there appears to have been some improvements to the
court system. Tribe officials stated professional capacity has
improved. Tribe officials also believed there was an elevated
commitment to both prosecution and defense services, as well as
elevated knowledge gained by Tribal court judges. Tribe officials went
on to say that the program allowed for more fair and equitable
services for the Tribal members.

Grant No. 2007-HE-WX-0039

       Grant No. 2007-HE-WX-0039, in the amount of $398,901, was
funded by the TRGP, which was designed to expand the
implementation of community policing and meet the most serious
needs of law enforcement in tribal communities. The Tribe’s goals for
this grant were to make the Tribal police more visible in the
community and to increase vehicle patrols on the reservation. This
included the purchase of uniforms and standard issue equipment for
the Tribe’s police officers, patrol cars that included writing to reflect
the Tribe’s police force, and computer equipment for police reports.
Specifically, the budget included vehicles equipped with radios, top
lights, emblems, and sirens; uniforms and various handheld devices
for police work; computer workstations; and methamphetamine and
other training. The grant start date was August 1, 2007, and the



                                    25
grant end date was August 31, 2010, after two extensions totaling
13 months.

       According to the terms and conditions attached to 2007 TRGP
grant, the funding under this project was for the payment of approved
costs for the continued development of tribal law enforcement
infrastructure to support community policing. We found that many of
the items and services purchased with grant funds were issued to the
Tribe’s Fish and Game Department. For example, 8 of the 10 vehicles
were used exclusively by Fish and Game. Other expenditures, such as
supplies for the vehicles, uniforms, and computers, and training were
also used to support the Tribe’s Fish and Game Department.
According to Tribe officials, the allocation of grant resources resulted
from the former Tribe Chairman’s effort to develop a Big Horn County
Law Enforcement Agency, which would include the Crow Tribe Police
and Fish and Game Departments, Bureau of Indian Affairs (BIA)
officers, and the Big Horn County Sheriff’s Department. The Tribe
began to allow the Fish and Game Department to accumulate law
enforcement expenditures, in order to help bring the Police and Fish
and Game Department closer together. Tribe officials also stated that
the BIA provided vehicles for the police officers, so the Tribe opted to
provide vehicles to Fish and Game.

       In addition, Tribe officials stated that after months of preliminary
planning a letter of intent related to the Big Horn County Law
Enforcement Agency was submitted to the BIA in July 2008. Due to
personnel changes and other problems, the Tribe withdrew the
proposal in February 2009. At the time of our audit, Tribe officials
indicated that the Fish and Game Department generally enforces Fish
and Wildlife Code, but can be temporarily deputized to assist in law
enforcement during natural disasters, missing person calls, and big
community events, like Native Days. Despite the Fish and Game
officers’ potential role in future law enforcement and their temporary
law enforcement capacity, it does not appear their use of grant
resources significantly contributed to the development of tribal law
enforcement infrastructure or supported community policing.

Grant No. 2007-CK-WX-0313

            Grant No. 2007-CK-WX-0313, in the amount of $399,157,
was funded by the Meth Initiative, which supported enforcement,
training, and prevention activities, and was concentrated in areas with
the greatest need for assistance in combating methamphetamine
production, distribution, and use. The Crow Tribal Meth Project was


                                    26
intended to address partnership development, prevention, training,
and some intelligence gathering. This included a Memorandum of
Understanding (MOU) of federal, state, tribal, and local agencies to
assist and work collaboratively for the fight against meth. The budget
included wages and fringe benefits for the Meth Project Coordinator;
equipment and supplies related to police work and related to a central
location for recording and storing data on meth crimes and usage;
evaluation of the project; community events (school, special events,
community meetings); overtime for officers participating in community
events, as well as responding to meth related calls; and training for
sworn officers and the project coordinator. The grant start date was
September 1, 2007, and the grant end date was August 31, 2011,
after three extensions totaling 24 months. We did not see evidence of
either an MOU or a central location for recording and storing meth
data. However, it is our opinion that the Tribe successfully
implemented the remaining goals of this program.

Grant No. 2009-RK-WX-0520

      Grant No. 2009-RK-WX-0520, in the amount of $146,474, was
funded by the CHRP, which provided funding directly to law
enforcement agencies to support newly hired, rehired, and/or retained
career law enforcement officers in an effort to create and preserve
jobs, and to increase their community policing capacity and crime
prevention efforts. For details regarding community policing, see the
Community Policing Plan in the supplemental section of this report.
The Tribe’s goal for this grant was to hire one new sworn officer. The
grant start date was July 1, 2009, and the end date was June 30,
2012. The Tribe outlined salary and fringe benefits to be paid to one
new officer over three years. Tribe officials stated that the Tribe
obtained one additional officer. This corresponds with the Tribe’s
accounting records, which identify two officers paid using grant funds
– the original hire and the original hire’s replacement.

       According to the 2009 CHRP Grant Owner’s Manual, Grant funds
reflecting allowable project costs must be obligated before the end of
the grant period. We identified just over 21 months of expenditures as
of July 11, 2011, that can be applied to the 3-year funding period.
The grant was scheduled to end on June 30, 2012, 12 months from
the beginning of our fieldwork. If there was no gap in subsequent
expenditures, there would be a total of 33 months of activity on that
date. This was less than the 36 months allotted, which means grant
expenditures cannot be exhausted prior to the end date. This was the
result of a 77-day gap between the resignation of the first employee


                                  27
hired through the grant and the hiring of the replacement officer. We
determined the grantee’s program was not on track to accomplish
goals and objectives, based on the grant end date. An extension will
be required, in order to meet the obligation requirement.

Monitoring Contractors

      According to 28 C.F.R Part 66.36, grantees will maintain a
contract administration system which ensures that contractors perform
in accordance with the terms, conditions, and specifications of their
contracts. We reviewed the administration of contracts on a per
contract basis. The Tribe had a total of three contracts within the
scope of our audit. Grant No. 2005-HE-WX-0005 included two legal
services contracts. Elk River Law Offices (Elk River) provided
prosecution services. The firm specializes in Indian law, including
extensive litigation experience in Tribal courts. Montana Legal
Services Association (MLSA) provided defender services. The firm
specializes in providing legal assistance to low-income people. Grant
No. 2007-CK-WX-0313 included one evaluation contract. The
contractor was an individual providing an evaluation of the grant,
which was also known as the Crow Tribe Civilian Meth Project. We
determined the Elk River and the evaluation contracts were properly
monitored, while the MLSA contract was not properly monitored.

       Elk River was contracted to represent the Tribe in court and was
to receive compensation at designated hourly rates. The Tribe
monitored the firm’s performance by having the Tribe’s legal counsel
review invoices and, if necessary, identify questioned items prior to
payment. The invoices included an itemized list of time and tasks
performed. The listed items appeared to provide sufficient detail
regarding work performed. We determined the review process
ensured that the contract was adequately monitored. Although we
found that the Tribe adequately monitored the Elk River contract, as
discussed in the Transaction Testing section of this report, contracted
legal services were not authorized under the grant. As a result, we
previously questioned the entire $128,537 paid to the contractor.

      The individual evaluator was contracted to provide an analysis of
the Crow Civilian Meth Project and was to receive an hourly rate for an
estimated 260 hours of service. According to the contract, the Tribe
only agreed to pay the consultant the amount listed in the contract if
services rendered were satisfactory, meaning the final product
matched the project description. An invoice outlining hours worked in
conjunction with the final deliverable – the completed project


                                  28
evaluation – is a sufficient method for the Tribe to assess the
evaluator’s compliance with the contract.

      MLSA was contracted to provide a minimum of 120 hours per
month in direct case services or community and legal education and
was to receive compensation at a designated monthly rate. The
contract indicated that an itemization of the hours spent on this
contract could be provided upon the request of the Tribe. However,
expense records indicate that accounting authorized payment of the
monthly rate without performing two important steps: (1) requesting
an itemized list of time and task, and (2) reviewing the time and task
with judicial personnel. This means the 120 hour monthly minimum
outlined in the contract was never confirmed. There did not appear to
be adequate communication between the Court and the Accounting
Department.

       During the course of our audit, the Tribe’s accountants provided
us with a list of the work MLSA performed during the grant period,
including work performed by the lawyer billed under this grant. While
this document demonstrates that the hours billed were likely
representative of work performed, the document was created on
August 31, 2011. This documentation was not requested at the time
of payment, meaning the contractor was still not appropriately
monitored. However, the accountants also provided a new tracking
mechanism for the MLSA contract to correct the issue of insufficient
monitoring. The form tracks dates of service, office hours, number of
clients served, and the number of court appearances. This should
assist the accounting department in verifying that billed services
match actual services provided, prior to payment. We determined this
sufficiently addresses the finding. Although we found that the Tribe
sufficiently addressed it’s monitoring of the MLSA contract, as
discussed in the Transaction Testing section of this report, contracted
legal services were not authorized under the grant. As a result, we
previously questioned the entire $57,750 paid to the contractor.

Recommendations

      We recommend that the COPS Office:

1.    Ensure that the Crow Tribe of Indians implements controls to
      ensure items and services billed matched those received.




                                   29
2.    Remedy the $186,287 in questioned costs related to unallowable
      expenditures paid to contractors under Grant
      No. 2005-HE-WX-0005.

3.    Remedy the $1,589 in questioned costs related to unsupported
      expenditures for Grant No. 2007-HE-WX-0039.

4.    Remedy the $252,478 in questioned costs related to unallowable
      expenditures for Grant No. 2007-HE-WX-0039 for purchases not
      used for the purposes specified in the grant.

5.    Remedy the $6,499 in questioned costs related to unsupported
      expenditures for Grant No. 2007-HE-WX-0313.

6.    Remedy the $1,369 in questioned costs related to unallowable
      expenditures for Grant No. 2005-HE-WX-0005 for travel and
      training costs incurred by persons not authorized to receive
      training under the grant.

7.    Remedy the $12,424 in questioned costs related to unallowable
      expenditures for Grant No. 2007-HE-WX-0039 for travel and
      training costs incurred by persons not authorized to receive
      training under the grant.

8.    Remedy the $3,784 in questioned costs related to unallowable
      expenditures for Grant No. 2007-CK-WX-0313 for travel and
      training costs incurred by persons not authorized to receive
      training under the grant.

9.    Remedy the $1,095 in questioned costs related to unsupported
      travel and training expenditures for Grant
      No. 2007-HE-WX-0039.

10.   Ensure that the Crow Tribe of Indians receives approval from
      COPS prior to transferring grant funds between direct cost
      budget categories in excess of 10 percent of the total award.

11.   Remedy the $21,506 in questioned costs related to unallowable
      expenditures for Grant No. 2005-HE-WX-0005 for salary and
      fringe benefits for the unapproved court administrator position.

12.   Remedy the $6,125 in questioned costs for duplication payroll
      charges made under Grant No. 2007-CK-WX-0313.



                                  30
13.   Remedy the $4,288 in questioned costs for unallowable
      expenditures for fringe benefits charges not included as an
      approved budget category under Grant No. 2005-HE-WX-0005.

14.   Ensure the Crow Tribe of Indians develops and implements
      policies and procedures to accurately monitor grant-funded
      equipment by tagging and identifying equipment purchased with
      grant funds.

15.   Remedy the $10,316 in questioned costs related to unverifiable
      accountable property, including 2 thermal imagers, for Grant
      No. 2007-CK-WX-0313.

16.   Ensure that the Crow Tribe of Indians develops and implements
      policies and procedures to obtain prior approval from COPS for
      any sole source expenditures.

17.   Ensure that the Tribe develops and implements policies and
      procedures to communicate with COPS prior to initiating grant
      activity that significantly deviates from the goals and objectives
      outlined in the grant application or applicable modifications.




                                   31
         SUPPLEMENTAL REVIEW OF 2009 COPS HIRING
                RECOVERY PROGRAM (CHRP)
                Grant No. 2009-RK-WX-0520

     We found that the Tribe reported data in the CHRP
     application that was inaccurate or not possible to replicate
     in seven instances. We also found that the officer type
     funded under the grant did not successfully meet the new
     hire provision as required under CHRP, and the payroll
     expenditures funded by the grant exceeded entry-level
     salary and fringe benefit levels also required under CHRP
     by $25,593. Further, we found the Tribe did not fully
     enact the community policing plan outlined in the
     completed 2009 CHRP grant application, as there was no
     evidence that Tribal police officers were participating in
     community meetings.

Application Statistics

       The CHRP grants were awarded to recipients based on a
mathematical formula that took into consideration fiscal and economic
conditions, rates of crime, and community policing activities. Internal
audit work revealed that COPS did not effectively ensure that grantee
applicant data was accurate or reliable. As a result, applicants that
inflated data COPS used to score and rate applications could have
received grant funds erroneously. The purpose of this section is to
ensure the data in the grantee’s application were supported by
verifiable and accurate information. According to the grant
application, the signatures of the Law Enforcement Executive/Program
Official and Government Executive/Financial Official, and any
applicable program partners on the Certification of Review and
Representation of Compliance with Requirements attests to the
accuracy of the information submitted with the application.

      During our analysis of CHRP application statistics,
we identified seven data exceptions that were significant. Three of
the seven data exceptions were related to financial figures. This
included understating the law enforcement budget, understating the
Tribe’s operating budget, and providing the wrong data for the General
Fund balance. Three of the seven data exceptions were related to the
percentage of law enforcement lay-offs, furloughs, and other
reductions. The Tribe was not able to replicate the data, in order for
us to verify its accuracy. One of the seven data exceptions was
related to the number of crime incidents in calendar year 2008. The


                                  32
figures reported in the application and the figures we reviewed did not
match in five of the seven incident categories. Cumulatively, the Tribe
reported 15 more crime incidents in the grant application than we
were able to verify.

      The Tribe employee responsible for completing the 2009 CHRP
application did not work for the Tribe at the time of our audit.
Consequently, we were unable to determine what data was used and
how it was used in submitting the application. Tribe officials identified
the most likely sources of data used to complete the application, in
order to conduct the analysis. However, the absence of the employee
who completed the application made it difficult for us to determine the
cause of the data exceptions when they were encountered. For the
three data exceptions related to financial figures, it appears there was
not a sufficient review of the CHRP application instructions. For the
remaining four data exceptions, we did not see any evidence of
documents outlining the methodology used to generate the
figures, copies of the source data, or other pertinent records.
The absence of a paper trail increases the likelihood that the reported
data cannot be replicated or verified.

Officer Type Funded and Entry-Level Salary Provisions

       According to the 2009 CHRP Grant Owner’s Manual, funds may
only be used to pay for law enforcement officers hired, rehired and/or
retained on or after the award start date. The Tribe requested funding
for one new hire. The grant fund began covering personnel expenses
for one officer at the start of the grant. However, payroll
documentation indicates that the grant funded officer was not a new
hire. Tribe personnel explained and payroll records
confirmed that although they were paying an existing employee with
grant funds, the Tribe made an additional hire and paid that officer
using the General Fund. This means the Tribe backfilled a General
Fund vacancy, in order to meet the new hire requirement. However,
this decision presented an issue when the new hire resigned just over
five months after the hire date. Tribe officials stated that the vacated
General Fund position was not filled after the officer’s resignation due
to economic hardship. We determined the Tribe’s inability to continue
to fund a new hire means that the Tribe was not successful in meeting
this requirement.

      According to the 2009 CHRP Grant Owner’s Manual, grant
funding must be limited to paying the agency’s entry-level salary and
fringe benefits; any costs higher than entry-level must be paid by the


                                   33
agency with local funds. The Tribe’s 2009 entry-level salary was
$12 per hour and the 2009 entry-level fringe benefit rate was 11.88
percent. According to payroll records, two employees were paid using
grant funds, including the employee originally paid under the grant,
Employee 1, and the employee’s replacement, Employee 2. Both
Employee 1 and Employee 2 had average salaries that exceeded
the starting salary for the Tribe. The pay rates were $17.85 per hour
and $17 per hour respectively. Employee 1’s average fringe benefit
rate of 11.14 percent was lower than the starting benefit rate.
However, Employee 2’s average fringe benefit rate of 18.12 percent
exceeded the starting benefit rate, as shown in Exhibit 7.

                      EXHIBIT 7
   ENTRY-LEVEL PAYROLL EXPENDITURES VERSUS ACTUAL
 PAYROLL EXPENDITURES FOR GRANT NO. 2009-RK-WX-0520

                  PAYROLL TRANSACTIONS     AVG. PAY RATE PER   AVG. FRINGE BENEFIT
   EMPLOYEE            DATE RANGE                HOUR                 RATE

  Entry-Level                                  $12.00               11.88%

       1          July 2009 to Jan 2011          17.85              11.14%

       2          Mar 2011 to July 2011          17.00              18.12%
Source: Crow Tribe of Indians

       At the start of the grant, the Tribe’s decision to transfer an
existing employee to the grant likely resulted in Employee 1’s pay rate
exceeding entry-level. While the replacement hire was a new hire,
Employee 2 had previous law enforcement experience with the Tribe,
which likely resulted in the Employee 2’s pay rate exceeding entry-
level. Tribe officials stated that Employee 2’s fringe benefit rate was
high because it included workers’ compensation.

      As of July 27, 2011, salary and fringe benefit expenditures
charged to the grant totaled $78,758. We recalculated both
employee’s salaries and fringe benefits based on the entry-level salary
and fringe benefit rates. Allowable expenditures for both employees
totaled $53,165. We subtracted the allowable expenditures from
expenditures charged to the grant to calculate $25,593 in questioned
costs, due to excess salary and fringe benefit expenditures being
charged to the grant, as shown in Exhibit 8.




                                      34
                            EXHIBIT 8
                 ALLOWABLE PAYROLL EXPENDITURES
                  FOR GRANT NO. 2009-RK-WX-0520
                                                                              PAYROLL
                                                        ENTRY-LEVEL
                  PAYROLL                                                  EXPENDITURES
                                     TOTAL PAYROLL         PAYROLL
 EMPLOYEE       TRANSACTIONS                                                IN EXCESS OF
                                     EXPENDITURES       EXPENDITURES
                 DATE RANGE                                                ENTRY-LEVEL
                                                        (ALLOWABLE)
                                                                          (UNALLOWABLE)
     1           July 2009 to
                   Jan 2011            $62,695             $42,425             $20,270
                 Mar 2011 to
     2            July 2011              16,064              10,740              5,323

             TOTAL                    $78,758             $53,165             $25,593
Source: Crow Tribe of Indians

Supplanting

       CHRP funds should supplement, not supplant, already committed
funds. According to the 2009 CHRP Grant Owner’s Manual, under
CHRP, the nonsupplanting requirement means that a grant recipient
receiving CHRP grant funds to hire a new officer position must hire the
additional position on or after the official grant award start date, above
its current budgeted (funded) level of sworn officer positions. In
addition, the grantee must take active and timely steps pursuant to its
standard procedures to fully fund law enforcement costs already
budgeted as well as fill all locally-funded vacancies resulting from
attrition during the life of the grant.

       Employee 1 was paid using grant funds beginning on July 15,
2009, which was 14 days after the grant start date. Employee 1 was
not a new hire. According to the payroll notes, the employee was
hired by the Fish and Game Department on March 8, 2006, and
transferred to the Tribal Police Department on July 30, 2008,
11 months prior to the award start date. The employee was paid
through the General Fund until July 1, 2009, when salary and fringe
benefits were transferred to the CHRP fund. 9 According to Tribe
officials, the Tribe advertised the new position and deemed Employee
1 the most qualified. Employee 1 was transferred to the grant
program and a new hire, Employee 3, backfilled the General Fund
position. According to payroll notes, Employee 3 was hired by the

         9
           The payroll notes indicate that Employee 1 was transferred to the CHRP fund
account on August 9, 2009. However, retroactive journal entries began July 15, 2009,
for the first salary payment for hours worked beginning July 1, 2009, the start date of
the grant.


                                          35
Tribe’s Police on August 22, 2009, and was paid the Tribe’s entry-level
salary, $12 per hour. Employee 3 resigned on February 2, 2010.
Tribe officials stated that there was no replacement hire for the vacant
General Fund position. Employee 1 resigned 11 months later on
January 5, 2011. Employee 2 entered service as a grant funded
employee on March 10, 2011, and was still employed at the time of
our fieldwork.

      Based on the information above, we determined if supplanting
occurred and what, if any, expenditures charged to the grant were not
allowable. We determined backfilling the General Fund position with a
new hire allowed the Tribe to meet the nonsupplanting requirement
during Employee 3’s period of employment because a new position
was created after the award start date above the budgeted level of
sworn officer positions. This is based on our determination that the
grant funded payroll start date for Employee 1 and the General Fund
payroll start date for Employee 3 were reasonably close together.

      Employee 1 continued to be paid with grant funds from
February 2, 2010, to January 5, 2011, despite the General Fund
vacancy created by Employee 3’s resignation. Employee 2, Employee
1’s replacement, was then hired to fill the grant funded position,
despite the continued vacancy of the position paid through
the General Fund. This violates the nonsupplanting requirement
because the grantee must take active and timely steps to fully fund
law enforcement costs already budgeted as well as fill all locally
funded vacancies resulting from attrition during the life of the grant.

      According to the ‘Letter of Guidance – Nonsupplanting
Requirements’ distributed by the COPS Office, while the
nonsupplanting requirement prohibits a grantee from reducing its
sworn officer budget just to take advantage of the CHRP grant, a
grantee may continue to implement its CHRP grant following a
reduction in its locally-funded sworn force if the grantee is able to
demonstrate through documentation that the reduction occurred for
reasons unrelated to the receipt of CHRP funding and would have
occurred in the absence of the grant award. To demonstrate
compliance with the nonsupplanting requirement, the Police
Department must maintain documentation contemporaneous with the
reduction-in-force addressing, as applicable, its local fiscal situation,
personnel actions, and/or reorganization plans and document that its
actions were unrelated to the receipt of COPS funding.




                                   36
      We determined that the Tribe was able to demonstrate economic
hardship using documentation addressing revenue shortfalls in
FY 2010 and management correspondence related to hiring freezes,
lay-offs, and work hour reductions for the entire Tribe dated February
and March 2010. We determined the documentation dates were
contemporaneous with or sufficiently close to Employee 3’s
resignation. The proximity of these dates likely demonstrates why the
Tribe was not able to fill the General Fund vacancy. We determined
that continuing to pay Employee 1 and subsequently hiring Employee
2, despite the vacancy in the General Fund position was compliant with
the nonsupplanting requirement, because the Tribe was able to
demonstrate extenuating economic circumstances that led to
reductions in its locally funded sworn force that were unrelated to
receipt of CHRP funding.

Retention Plan

      The grantee must retain all CHRP officer positions for a minimum
of 12 months at the conclusion of the grant. The Tribe indicated that it
planned to retain the additional sworn officer under this grant for a
minimum of 12 months using General Funds as the funding source.
Tribe officials indicated that funds were set aside to meet grant
requirements at the beginning of the fiscal year. We determined that
evidence of a similar requirement being met in a previous fiscal year
provides sufficient assurance that the CHRP funded position will be
included in a future budget. We also determined that evidence of
the grant funded position already being replaced, as well as the Tribe’s
hiring policies, provided sufficient assurances that the Tribe will fill the
vacancy should one arise during the retention period.

Community Policing Plan

      The COPS Office defines community policing as a philosophy that
promotes organizational strategies, which support the systematic use
of partnerships and problem-solving techniques, to proactively address
the immediate conditions that give rise to public safety issues such as
crime, social disorder, and fear of crime. According to the 2009 CHRP
Grant Owner’s Manual, CHRP grants must be used to initiate or
enhance community policing activities. All newly hired, additional or
rehired officers (or an equal number of redeployed veteran officers)
funded under CHRP must engage in community policing activities.

      The Tribe did not fully enact the community policing plan.
Specifically, Tribal Police officers are not participating in community


                                    37
meetings, an intention outlined the completed 2009 CHRP grant
application. The staff responsible for overseeing the grant and the
supervisor responsible for overseeing the Tribe’s police officers did not
appear to be aware of the community policing activity requirement
that accompanied 2009 CHRP funding. The absence of community
meetings may have resulted in the police not being fully informed
regarding community needs because the community did not have a
proper forum to communicate needs.


Recommendations for the Supplemental Review

      We recommend that the COPS Office:

18.   Ensure that the Crow Tribe of Indians documents all procedures
      related to compiling and verifying data submitted in applications
      for COPS funding.

19.   Remedy the $25,593 in questioned costs as a result of
      unallowable personnel expenditures, including salary and fringe
      benefits that exceeded entry-level.

20.   Ensure that the Crow Tribe of Indians develops and implements
      a plan to carry out the stated community policing plan.




                                   38
                                                               APPENDIX I

               OBJECTIVES, SCOPE, AND METHODOLOGY

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grants were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grants, and to determine program performance and
accomplishments. The objective of our audit was to assess risks and review
performance in the following areas: (1) internal control environment,
(2) drawdowns, (3) grant expenditures, including personnel and indirect
costs, (4) budget management and control, (5) matching, (6) property
management, (7) program income, (8) financial status and progress reports,
(9) grant requirements, (10) program performance and accomplishments,
and (11) monitoring of subgrantees and contractors. In addition to the
objectives above, for CHRP Grant No. 2009-RK-WX-0520 we also reviewed
performance in the following areas: (1) application statistics, (2) officer
type funded and entry-level salary provisions, (3) supplanting, (4) retention
plan, and (5) community policing plan. We determined that matching,
program income, and monitoring of subgrantees were not applicable to
these grants.

       We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence
to provide a reasonable basis for our findings and conclusions based on
our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives. Our audit concentrated on, but was not limited to, the award
of Office of Community Oriented Policing Services (COPS) grants on
September 1, 2005, through July 11, 2011. This was an audit of COPS
Tribal Court Pilot Program Grant No. 2005-HE-WX-0005, COPS Tribal
Resources Grant Program Grant No. 2007-HE-WX-0039, COPS
Methamphetamine Initiative Grant No. 2007-CK-WX-0313, and COPS
Hiring Recovery Program Grant No. 2009-RK-WX-0520, awarded to the
Crow Tribe of Indians (Tribe). The Tribe received a total of $1,385,532 in
COPS grant awards and had a total of $1,119,902 in drawdowns through
July 11, 2011.

      We tested compliance with what we consider to be the most important
conditions of the grant. Unless otherwise stated in our report, the criteria
we audit against are contained in the COPS Grant Owner’s Manuals and the
grant award documents.



                                     39
       In conducting our audit, we performed sample testing in five areas,
which were drawdowns, grant expenditures, personnel, indirect costs, and
property management. In this effort, we employed a judgmental sampling
design to obtain broad exposure to numerous facets of the grants reviewed,
such as dollar amounts or expenditure category. We identified samples of
42 drawdowns, 97 grant expenditures, 9 grant funded employees, 9 indirect
cost transactions, and 21 items of accountable equipment. This
non-statistical sample design does not allow projection of the test results to
the universes from which the samples were selected.

      In addition, we reviewed the timeliness and accuracy of FSRs and
Progress Reports, evaluated performance to grant objectives evaluated the
grantee’s monitoring of the contractor, and determined the completeness
and accuracy of grantee information submitted in the CHRP application;
however, we did not test the reliability of the financial management system
as a whole.




                                      40
                                                                          APPENDIX II

                 SCHEDULE OF DOLLAR-RELATED FINDINGS

Description                                                         Amount         Page
Unallowable Costs

2005-HE-WX-0005:
  Unallowable contract costs                                          $186,287        10
  Unallowable travel/training costs                                      1,369        11
  Unallowable payroll costs for an unapproved position                  21,506        15
  Unallowable fringe benefits                                            4,288        15
Total Questioned Costs for 2005-HE-WX-0005                           $213,450

2007-HE-WX-0039
  Unsupported equipment and supplies costs                              $1,589        10
  Unallowable equipment and supplies costs                             252,478        11
  Unallowable travel/training costs                                     12,424        11
  Unsupported travel/training costs                                      1,095        12
Total Questioned Costs for 2007-HE-WX-0039                           $267,586

2007-CK-WX-0313
  Unsupported expenditures                                              $6,499        11
  Unallowable travel/training costs                                      3,784        12
  Duplicate payroll charges                                              6,125        15
  Unverifiable accountable property                                     10,316        17
Total Questioned Costs for 2007-CK-WX-0313                            $26,724

2009-RK-WX-0520
  Unallowable excess salary                                            $25,593        37
Total Questioned Costs for 2009-RK-WX-0520                            $25,593

Total Questioned Costs 10                                            $533,353




       10
           Questioned costs are expenditures that do not comply with legal, regulatory, or
contractual requirements, or are not supported by adequate documentation at the time of the
audit, or are unnecessary or unreasonable. Questioned costs may be remedied by offset,
waiver, recovery of funds, or the provision of supporting documentation.



                                            41
                                                                              APPENDIX III

                      QUESTIONED TRANSACTION DETAILS 11

  Transaction            ID             Transaction                                Amount
     Date              Number           Description              Reason           Questioned
Grant No. 2005-HE-WX-0005

1/1/2006 -
12/11/2007           ELK1011        Prosecution Services        Unallowable         $128,537
1/1/2006 -
7/17/2008            MON1250      Legal Services                Unallowable              57,750
                     Unallowable Contract Costs Subtotal                            $186,287
2/21/2007            ROH2025        Travel Authorization        Unallowable               $414 12
2/23/2007            ACT2025        Air Fare (for Training)     Unallowable                470 13
                                    Training Registration
                                    Fee (for 1 of 3
3/2/2007             NAT1012        employees)                  Unallowable                485 14
                     Unallowable Travel/Training Subtotal                                $1,369
                  Total for Grant No. 2005-HE-WX-0005                              $187,656


Grant No. 2007-HE-WX-0039
                                    Brackets for Fire         Unsupported and
4/30/2008              BIL1890      Extinguishers               Unallowable          $     490
                                    Patch and
                                    Conservation Ranger       Unsupported and
6/14/2010              CRE1120      Badge                       Unallowable                650
                                                              Unsupported and
11/20/2009             BAL1000      Badges                      Unallowable                449
                Unsupported Equipment and Supplies Subtotal                         $     1,589
12/21/2007             YEL3035      8 Vehicles                  Unallowable         $237,384
                                    Fish and Game
1/11/2008              AUT1020      Vehicle Logos               Unallowable               1,422
                                    Top Lights, Sirens
2/25/2008              RFC1000      and Radios                  Unallowable               3,400


       11
           Table includes details for only questioned costs identified in the Transaction Testing
section of the report.
       12
            Amount excludes $141 from original transaction due to a travel reconciliation entry.
       13
          Amount questioned is a third of the total transaction as one of three attendees was
unallowable.
       14
          Amount questioned is a third of the total transaction as one of three attendees was
unallowable.


                                               42
 Transaction         ID            Transaction                            Amount
    Date           Number          Description              Reason       Questioned
                               Fish and Game
2/12/2009          BAL1000     Department Uniforms         Unallowable        3,325
                               Criminal Justice
                               Network Services for
                               Fish and Game
2/10/2010         MON2023      Department                  Unallowable        3,756
                               Vehicle Costs (for
6/14/2010         MON1530      Training)                   Unallowable         800
8/31/2010          DEL1020     Dell Computer               Unallowable        1,299
                               Gooseneck Hitch
4/17/2008          CYC1000     Installation                Unallowable         546
                               Gooseneck Hitch
4/17/2008          CYC1000     Installation                Unallowable         546
             Unallowable Equipment and Supplies Subtotal                  $252,478
                               Travel authorization
3/26/2010         TOB1010      to attend training          Unallowable    $    298
                               Travel authorization
10/23/2009        COY2027      to attend training          Unallowable         790
                               Travel authorization
4/1/2010           GRI2050     to attend training          Unallowable        1,784

                               Tuition for basic law
                               enforcement training
1/19/2010         MON1530      (reclass entry)             Unallowable        1,200

                               Tuition for basic law
4/16/2010         MON1530      enforcement training        Unallowable        2,400
                               Travel authorization
4/1/2010           PEA1090     to attend training          Unallowable        1,784
                               Travel authorization
10/23/2009        STO1115      to attend training          Unallowable        1,311
                               Travel authorization
3/26/2010          BIG1034     to attend training          Unallowable         298
                               Travel authorizations
12/9/2009-                     and travel
7/29/2010         WHI1021      reconciliation              Unallowable        2,263
                               Travel authorization
3/26/2010          WIL9030     to attend training          Unallowable         298
               Unallowable Travel and Training Subtotal                   $ 12,424
                 Not           To reclass Credit Card
1/1/2010         provided      Charges                    Unsupported     $   1,095
               Unsupported Travel and Training Subtotal                       1,095
               Total for Grant No. 2007-HE-WX-0039                       $267,586




                                          43
 Transaction            ID             Transaction                                Amount
    Date              Number           Description              Reason           Questioned
Grant No. 2007-CK-WX-0313
4/29/2008           4IM1000        Polyclean Bottles          Unsupported         $   6,499
               Unsupported Equipment and Supplies Subtotal                        $   6,499
                                Travel authorizations
2/29/2008 -                     and Attend
6/20/2008           EAS1019     conference                Unallowable             $   1,344 15
                                On-line CC payment
                                for travel (including
3/21/2008 -                     reclass entry on
9/24/2008            FIR2023    9/24/2008)                Unallowable                 1,645
                                   Travel authorization
5/14/2010             BIG1034      to attend training         Unallowable               636
                                   Registration for 1 of
                                   the 4 employees
4/28/2008            MSU2021       registered                 Unallowable               159
                  Unallowable Travel and Training Subtotal                        $   3,784
                 Total for Grant No. 2007-CK-WX-0313                             $ 16,782




      15
           Amount excludes $107 from original transaction due to a travel reconciliation entry.


                                              44
                                                                                           APPENDIX IV

CROW TRIBE OF INDIANS’ RESPONSE TO THE DRAFT REPORT


                              CROW TRIBAL
                             Executive Branch
                                Bacheeitche Avenue P.O . Box 159
                                     Crow Agency, MT 59022
                            Phone: (406) 638-3843 Fax: (406)638-3886

                                                                              Cedric Black Eagle, Chairman
                                                                         Calvin Jefferson Jr., Vice Chairman
                                                                                      Scoll Russell, Secretary
                                                                          DO/Tin Old Coyote, Vice Secretary


   FeblUary 7, 2012


   Sean B. Haynes
   Assistant Regional Audit Manager
   U.S . Department of Justice
   Office of Inspector General
   Denver Regional Audit Office
   1120 Lincoln Street, Suite 1500
   Denver, CO 80203

   Dear Sean,

   This letter is in response to the Department of Justice Audit conducted on the grants awarded to
   the Crow Tribe by the Office of Community Oriented Policing Services (COPS). The audit was
   conducted on the following grand awards; 2005-HE-WX-0005, 2007-HE-WX-0039, 2007-CK­
   WX-0313 and 2009-RK-WX-0520. The awarded funds total $1,385,532. The department of
   justice identified questioned costs totaling $533,353. There were a total of20 findings and
   corresponding recommendations. After reviewing the report, the Crow Tribe agrees with the
   policies and procedures that were recommended, but does not agree with all of the remedies of
   questioned costs. Below we identify the steps we need to take to take to avoid these findings
   from recurring:

      1. Establish adequate receiving procedures and confLfm staff is trained in performing their
         duties, as required. Establish a central receiving department. Develop and implement
         policies and procedures that identify and track property purchases with a value over
         $5,000, as well as, tracking any other accountable prope11y.
      2. Establish the proper procedures to ensure that all budget modifications are submitted and
         approved before any change or expenditure of funds is taken. Ensure there is a full
         understanding of the type of categories budgeted and what the budget modification rules
         are. Ensure there is adequate communication and approval with the agencies if grant
         activity significantly deviates from the goals and objectives outlined in the grant
         applications.




                                                  45

    3. Establish and maintain adequate retention policies and procedures. Ensure documents
       from prior years are kept and filed in a manner that is easily retrievable.
    4. Establish procedures that require all transactions to have adequate documentation, which
       fully substantiate and justify the purchase.
    S. Establish policies and procedures that ensure grant terms and conditions are fully
       reviewed and understood prior to utilizing the funds. Specifically, review all larger
       transactions to make sure the grant objective is being met before incurred.
    6. Establish and implement policies regarding sole source expenditures. Ensure prior
       approval from grantor agencies before expenditures are incuned.
    7. Establish policies and procedures that verify the accuracy of the grant applications.
       Establish due diligence in compiling and verifying data submitted.

In regards to the remedy of questioned costs, the Crow Tribe is asking for leniency in assessing
any repayment. With regards to all of the findings, the Crow Tribe believed it was making a
good faith eff0l1 to properly administer the grants and meet the objectives. With the 200S-HE­
WX-OOOS award, the Tribe did complete the objectives of the grant by implementing a public
defender and prosecutor for the Crow Nation. The grant allowed us to implement this initial
service and the Crow Tribe is continuing the services today. These are being paid for by the
General Funds of the Crow Tribe. At the time of the award, the Tribe sought out the resources to
complete the objectives of the grant. The best choice for the Tribe was to hire contracted
services to complete the objectives. The Tribe overlooked the proper procedures to modify the
budget and procuring the services correctly, but our intent was to meet the objectives.
Additionally, the COUl1 administrator acted as the director and this was merely a need for a title
change, not a budget modification. We are currently in contact with Lynnette Chambliss, grant
specialist COPS, to complete a retro-active budget modification for this grant. lfthis is
approved, this will cover all questioned costs of$213,4S0 for this award.

In regards to award 2007-HE-WX-0039, the Crow tribe believed it was allowable to utilize the
vehicles for the Fish & Game department. There was not any malicious intent to deceive DO] or
to improperly utilize those funds. The belief was the Fish & Game had cel1ain authority to help
enforce law and order on the reservation. They were enforcing the fish and game laws, as well
as, helping the police authority with search and rescue operations and a presence in the
community. They were serving the grantee agency and its population. Please review the
attached document titled, Grant #2007-HE-WX-0039, with regards to Title 12 of the Crow Law
and Order Code regarding the Fish and Game depar1ment. This document outlines the basis for
the Tribe's decision in regards to this grant.

The Crow Tribe admits more due diligence was needed to understand the grant terms and
conditions. The Crow Tribe is taking the necessary steps to ensure a complete understanding of
current and future grants. In regards to the DO] grants, we are attending trainings and are in the
process of making the recommended changes from the Audit rep0l1.




                                                46

Again, the Crow Tribe is seeking leniency in regards to repayment of the questioned costs. The
Crow Tribe has experienced a serious downturn in General Fund revenues. Our main source of
General Fund revenues is expected to be reduced by half in the current and next fiscal year. This
source of revenue is from the Coal industry. It has been hampered due to the economy and an
unforeseen explosion at the main power plant, which purchases our coal. We are requesting any
IYpe of remedy other than financial at this time. If the Tribe does have to make a financial
repayment , it will have to reduce services from the General Funds. This could affect the current
General Fund budgets for prosecution, public defenders, police depat1mcnt assistance and fish &
game. This will only hurt the community we arc trying so hard to serve. Iffinancial remedy
cannot be avoided, we are requesting the ability to make installment payments over the next five
years. We are trying very hard to be good stewards of our awards, but we recognize that we still
have many improvements to make.

Please let liS know what else we can do to improve otlr organization. We are committed to
maintaining a good standing with all Federal agencies. Please call us with any further questions
or comments.

Sincerely,


~f~ (/iJ-
Kristin Johnson, CPA
Crow Tribe Comptroller




                                              47

Grant No. 2007-HE-WX-0039

The Crow Tribe Fish and Game Department has authority to enforce Title 12 of the Crow Law
and Order Code, Fish and Game. Title 12 at § 12-11-101(2) requires that Conservation Officers
and Bison Pasture Rangers meet the following criteria: (a) never convicted of a felony, a crime
of domestic violence, or a misdemeanor crime involving moral turpitude; (b) high school
diploma or GED; (c) never dishonorably discharged from the U.S. Armed Services; (c) pass a
drug screening test; (d) certifiable with a handgun and re-certifiable on a bi-annual basis; (e)
must be 21 years of age or older; (f) familiarity with the Crow Tribal Fish and Game Code; (g)
must complete basic police academy training within a year of employment; (h) possess a valid
state drivers' license. In addition to these mandatory criteria, veterans' preference is applied.
As Crow Tribal employees, these officers all undergo background screening, including a full
criminal background check prior to employment.

It is clear that the Crow Tribe Fish and Game officers are charged with law enforcement
responsibility. They are responsible for ensuring compliance with Crow Tribal Fish and Game
Code, which is a comprehensive set of regulations of many significant activities on a rural
reservation such as the Crow Indian Reservation, including but not limited to hunting and
recreational pursuits. Crow Tribe Fish and Game Officers conduct patrols, investigate reports of
infractions of Crow Tribal Law, and write reports documenting alleged or observed violations of
Crow Tribal Law.

In the actual practice of this enforcement responsibility, the officers regularly encounter
numerous other infractions ofTribal and federal laws which require them to deal immediately
with violations of numerous other provisions of the Crow Law and Order Code beyond the
scope of Title 12 and, in practice, to detain individuals until BIA law enforcement is available to
respond, to preserve evidence, and to write reports that entail subject matter outside the
scope of Title 12. Crow Tribe Fish and Game Officers are thus regularly confronted with
situations which require them to take immediate and decisive action to protect individuals and
Crow Tribal or private property.

The MOU in place between the Crow Tribe and BIA Law Enforcement recognizes that Fish and
Game officers will frequently be "deputized" to serve as full law enforcement officers. These
events are regularly occurring as well as unpredictable, including both regularly held tribal
celebrations and community events, as well as natural disasters. The training and certification
required for Fish and Game Officers underscores their significant role in upholding public safety
and law and order on the Crow Indian Reservation frequently and at multiple times throughout
the year, rather than merely in isolated incidents. The ongoing shortage of BIA Law
Enforcement personnel and uniformed patrol officers on the Crow Indian Reservation is well
established. The plain and simple fact is that the Crow Tribe Fish and Game Officers have
supplemented the police force on a regular basis for many years and are seen by the Crow
Reservation community as a police presence. Officers wear uniforms, display badges, and
carry arms. They detain offenders, and also make arrests regularly under BIA Law Enforcement




                                                48

supervision. They have contributed significantly to the development of tribal law enforcement
infrastructure, and have provided strong support to community policing efforts.




                                             49

                                                                 APPENDIX V

          OFFICE OF THE INSPECTOR GENERAL COMMENTS
      ON THE CROW TRIBE’S RESPONSE TO THE DRAFT REPORT

       The Office of the Inspector General (OIG), Audit Division has identified
an issue in the Crow Tribe’s response to our draft report (Appendix IV)
relating to Grant No. 2007-HE-WX-0039 that we believe should be
specifically addressed. As a result, we are providing the following comments
on the Crow Tribe’s response to the draft report.

      The Crow Tribe’s response on page 46 of this report states:

      In regards to award 2007-HE-WX-0039, the Crow tribe believed it was
      allowed to utilize the vehicles for the Fish & Game Department.

       The Crow Tribe’s statement is not supported by the goals and
objectives the tribe outlined in the grant application for Grant
No. 2007-HE-WX-0039. In the application, the Crow Tribe specifically
identified Tribal police officers under BIA supervision as the intended
recipients of items purchased with grant funds. This included a plan to
purchase police cars for Tribal Officers that were supervised by the BIA Chief
of Police. We believe the specificity of the language excludes all
departments, including the Fish and Game Department, from utilizing grant
funded purchases, with the exception of the Police Department.

      The Crow Tribe provides additional remarks regarding the role of the
Fish and Game Department in law enforcement. The Crow Tribe’s response
on page 46 of this report states:

      The belief was the Fish & Game had certain authority to help enforce
      law and order on the reservation. They were enforcing the fish and
      game laws, as well as, helping the police authority with search and
      rescue operations and a presence in the community. They were
      serving the grantee agency and its population.

       The grant terms and conditions state that equipment, technology, and
vehicles purchased with this grant may only be used for law enforcement
activities that exclusively benefit the grantee and the population it serves.
The Fish and Game Department’s use of the grant funded purchases does
not comply with the grant criteria.




                                      50
      The Crow Tribe highlighted the department’s primary responsibilities
as part of the response. The Crow Tribe’s response on page 48 of this report
states:

      The Crow Tribe Fish and Game Department has authority to enforce
      Title 12 of the Crow Law and Order Code, Fish and Game . . .

      They are responsible for ensuring compliance with Crow Tribal Fish and
      Game Code, which is a comprehensive set of regulations of many
      significant activities on a rural reservation…including but not limited to
      hunting and recreational pursuits.

       According to Crow Law and Order Code, Title 12 “shall govern
activities including but not limited to hunting, fishing, trapping, gathering,
and recreation.” Tribal Conservation Officers are charged with enforcing
“the rules, regulations and ordinances promulgated relating to hunting and
fishing, trapping and all other regulations which relate to…the intent of this
code.” However, this does not meet the criteria of a law enforcement
agency. During the course of our fieldwork, Crow Tribe officials supported
this assertion by stating that the Fish and Game officers only had civil
authority and could not make arrests. Consequently, we believe the
department was providing services outside of law enforcement. This means
grant funded equipment, technology, and vehicles used by Fish and Game
officers in the course of their regular duties were used for non-law
enforcement activities, which violated the stated grant criteria.

      In addition, the Crow Tribe’s response on page 48 of this report states:

      In the actual practice of this enforcement responsibility, the officers
      regularly encounter…infractions of Tribal and federal law which require
      them to deal immediately with violations . . . beyond the scope of Title
      12. . .

      The MOU in place between the Crow Tribe and BIA Law Enforcement
      recognizes that Fish and Game officers will frequently be “deputized”
      to serve as full law enforcement officers…Crow Tribe Fish and Game
      Officers have supplemented the police force on a regular basis for
      many years and are seen by the Crow Reservation community as a
      police presence. They detain offenders, and also make arrests
      regularly under BIA Law Enforcement supervision. They have
      contributed significantly to the development of tribal law enforcement
      infrastructure, and have provided strong support to community
      policing efforts.



                                      51
       According to the terms and conditions attached to 2007 TRGP grant,
the funding under this project was for the continued development of tribal
law enforcement infrastructure to support community policing. The Tribe
asserts that the Fish and Game Department fulfilled this requirement by
dealing “with violations beyond the scope of Title 12,” frequently deputizing
officers to serve in a full law enforcement capacity, and making arrests
under BIA supervision. However, each of these activities requires Fish and
Game officers to perform actions outside of the scope of the normal duties
outlined in Title 12. In addition, as stated previously, the Fish and Game
Department authority does not meet the criteria of a law enforcement
agency. Therefore, the use of grant funds by Fish and Game officers in the
course of their regular duties were used for non-law enforcement activities,
which violated the stated grant criteria.




                                      52
                                                                                         APPENDIX VI

           COPS RESPONSE TO THE DRAFT REPORT


                u.s. DEI'A RTME N T Ot- J US TI C E
                OFFI CE OF C OMMU N ITY ORIENTED POLI C I NG SERVICES

                G r:mr Operarions Directorare/ Audit Lia ison Division
                                                                                COPS
                145 N Street, N.E., Washi ngton, DC 20530



Via Electronic alld U. S. Mail

To:            David M. Sheeren
               Regional Audit M anager
               Offic e of the Inspector General
               Denver Regional Audit Offi ce

From:          Donald J. Lango
               Management Analyst!Audit Liaison
               COPS Audit Liaison Division

Date:          Janwuy 31 , 201 2

Subject:       Response to Draft Audit Report for the Crow Tribe of Indians in Crow Agency,
               Montana

This memorandum is in response to your December 21, 20 II, draft audit report for the Crow
Tribe ofIndians (Crow Tribe) in Crow A gency, Montana. For ease ofreview, each audit
recormnendation is stated in bold and underlined, followed by COPS' response to the
reconunendation.

Reconunendation 1: Ensure that the Crow Tribe of Indians implements controls to ensure
items and services billed matched those received.

The COPS Offi ce concurs with the recommendation that Crow Tribe should implement controls
to ensure items and services billed match those received.

Discu&sion and Planned Action:
We will ensure that the grantee implements controls, including the development of written
policies and procedures for receiving goods and services, to ensure that items and services for
which Crow tribe is billed match what it actually has received.

Reque~1:
Based on the discussion and plarmed action, COPS requests resolution of Reconunendation I.


Reconunendation 2: Remedy the $186.287 in questioned co~1s related to unallowable
expenditures paid to contractors under Grant No. 2005-HE-WX-OOOS.

The COPS Offi ce agrees that grantees carmot expend fimds on lUlallowable expenditures.




ADVAN C ING PUB LI C SA FETY T H ROUG H COMMUN ITY POLIC I NG
                                                      •
                                                      53

David M . Sheeren, Regional Audit M anager
January 3 1, 20 12
Page 2


Discu~ion      and Planned Action:
In order to remedy the $ 186,287 in questioned costs, the COPS Office has detennined that additional
infonnation and clarification is required before we can make a final decision as to how to proceed.
Therefore, COPS will work with Crow Tribe to obtain additional infonnatioll. Once a decision is
made on how we plan to remedy this recommendatio~ the COPS Office -will provide your offic e
with our plan.

Request:
Based on the discussion and planned action, COPS requests resolution of Recorrunendation 2.


Recommendation 3: Remedy the $1.589 in questioned costs related to unsupported
expenditures for Grant No. 2007-HE-WX-0039.

The CO PS O ffic e concurs that grantees must provide supporting documents for all purchas es from
grant funds.

Discu~ion      and Planned Action:
In order to remedy the $ 1,589 in questioned costs, the COPS Office has determined that additional
inform ation and clarification is required before we can make a final decision as to how to proceed.
Therefore, COPS will work with Crow Tribe to obtain additional information. Once a decision is
made on how we plan to remedy this recommendatio~ the COPS Office vvill provide your offic e
with our plan.

Request:
Based on the discussion and planned action, CO PS requests resolution of Recorrunendation 3.


Recommendation 4: Remedy the $252.478 in questioned costs related to unallowable
expenditures for Grant No. 2007-HE-WX-0039 for purchases not used for the purposes
specified in the grant.

The COPS O ffic e agrees that grantees cannot expend funds on unallowable expenditures.

Discu~ion      and Planned Action:
In order to remedy the $252,478 in questioned costs, the COPS Office has detennined that additional
inform ation and clarification is required before we can make a final decision as to how to proceed.
Therefore, COPS will work with Crow Tribe to obtain additional information. Once a decision is
made on how we plan to remedy this recommendatio~ the COPS Office vvill provide your offic e
with our plan.

Request:
Based on the discussion and planned action, CO PS requests resolution of Recorrunendation 4.


                                                ..
ADVANCING PUBLIC SAFETY THROUGH COMMUN ITY POLICING




                                                54

David M. Sheeren, Regional Audit Manager
January 3 1, 20 12
Page 3


Recommendation 5: Remedy the $6,499 in questioned costs related to unsupported
expenditures for Grant No. 2007-HE-WX-0313.

The COPS O ffice concurs that grantees must provide supporting documents for all purchas es from
grant funds.

Discu~ion   and Planned Action:
In order to remedy the $6,499 in questioned costs, the COPS Office has determined that additional
information and clarification is required before we can make a final decision as to how to proceed.
Therefore, COPS will work with Crow Tribe to obtain additional information. Once a decision is
made on how we plan to remedy this recommendation, the COPS Office vvill provide your offic e
with our plan.

Request:
Based on the discussion and planned action, CO PS requests resolution of Recorrunendation 5.




persons not authorized to receive training under the grant.

The COPS O ffic e agrees that grantees cannot expend funds on unallowable expenditures.

Discu~ion   and Planned Action:
In order to remedy the $ 1,369 in questioned costs, the COPS Office has determined that additional
inform ation and clarification is required before we can make a final decision as to how to proceed.
Therefore, COPS will work with Crow Tribe to obtain additional information. Once a decision is
made on how we plan to remedy this recommendatio~ the COPS Office vvill provide your offic e
with our plan.

Request:
Based on the discussion and planned action, CO PS requests resolution of Recorrunendation 6.


Recommendation 7: Remedy the $12,424 in questioned costs related to unallowable
expenditures for Grant No. 2007-HE-WX-0039 for travel and training costs incurred by
persons not authorized to receive training under the grant.

The COPS O ffic e agrees that grantees cannot expend funds on unallowable expenditures.




                                                ..
ADVANCING PUBLIC SAFETY THROUGH COMMUN ITY POLICING




                                                55

David M. Sheeren, Regional Audit Manager
January 3 1, 20 12
Page 4


Discu~ion   and Planned Action:
In order to remedy the $ 12,424 in questioned cos1B, the COPS Office has detennined that additional
infonn ation and clarification is required before we can make a final decision as to how to proceed.
Therefore, COPS will work with Crow Tribe to obtain additional infonnation. Once a decision is
made on how we plan to remedy this recommendatio~ the COPS Office -will provide your offic e
-with our plan.

Request:
Based on the discussion and planned action, COPS requests resolution of Recorrunendation 7.


Recommendation 8: Remedy the $3,784 in questioned costs related to unallowable
expenditures for Grant No. 2007-CK-WX-0313 for travel and training costs incurred by
persons not authorized to receive training under the grant.

The COPS O ffic e agrees that grantees cannot expend funds on unallowable expenditures.

Discu~ion   and Planned Action:
In order to remedy the $3,784 in questioned cos1B, the COPS Office has detennined that additional
infonnation and clarification is required before we can make a final decision as to how to proceed.
Therefore, COPS will work with Crow Tribe to obtain additional infonnation. Once a decision is
made on how we plan to remedy this recommendatio~ the COPS Office -will provide your offic e
-with our plan.

Request:
Based on the discussion and planned action, CO PS requests resolution of Recorrunendation 8.


Recommendation 9: Remedy the $1.095 in questioned costs related to unsupported travel
and training expenditures for Grant No. 2007-HE-WX-0039.

The COPS O ffice concurs that grantees must provide supporting documents for all purchas es from
grant funds.

Discu~ion   and Planned Action:
In order to remedy the $ 1,095 in questioned cos1B, the COPS Office has detennined that additional
infonn ation and clarification is required before we can make a final decision as to how to proceed.
Therefore, COPS will work with Crow Tribe to obtain additional infonnation. Once a decision is
made on how we plan to remedy this rec ommendatio~ the COPS Office -will provide your office
-with our plan.

Request:
Based on the discussion and planned action, CO PS requests resolution of Recorrunendation 9.

                                                ..
ADVANCING PUBLIC SAFETY THROUGH COMMUN ITY POLICING




                                                56

David M. Sheeren, Regional Audit Manager
January 3 1, 20 12
Page 5


Recommendation 10: Ensure that the Crow Tribe of Indians receives approval from
COPS prior to transferring grant funds between direct cost budget categories in excess of
10 percent of the total award.

The COPS Offi ce concurs with this recommendation that Crow Tribe receives approval from
COPS prior to transferring grant fimds between direct cost budget categories in excess of
10 percent of the total award

Discu~ion and Planned Action:
We will ensure that the grantee develops and implements procedures to obtain approval from
COPS prior to transferring grant fimds between direct cost budget categories.

Request:
Based on the discussion and planned action, COPS requests resolution of Recorrunendation 10 .


Recommendation 11 : Remedy the $21.506 in questioned costs related to unallowable
expenditures for Grant No. 200S-HE-WX-0005 for salary and fringe benefits for the
unapproved court administrator position.

The COPS Offic e agrees that grantees cannot expend funds on unallowable expenditures.

Discu~ion and Planned Action:
In order to remedy the $2 1,506 in questioned cos1B, the COPS Office has determined that additional
inform ation and clarification is required before we can make a final decision as to how to proceed.
Therefore, COPS will work with Crow Tribe to obtain additional information. Once a decision is
made on how we plan to remedy this recomm endatio~ the COPS Office -will provide your offic e
-with our plan.

Request:
Based on the discussion and planned action, COPS requests resolution of Recorrunendation 11.


Recommendation 12: Remedy the $6,125 in questioned costs for duplication payroll
charges made under Grant No. 2007-CK-WX-0313.

The COPS Offic e agrees that grantees cannot expend funds on duplicative expenditures.

Discu~ion and Planned Action:
In order to remedy the $6,1 25 in questioned costs, the COPS Office has determined that additional
inform ation and clarification is required before we can make a final decision as to how to proceed.
Therefore, COPS will work with Crow Tribe to obtain additional information. Once a decision is
made on how we plan to remedy this recomm endatio~ the COPS Office -will provide your offic e

                                                ..
ADVANCING PUB LI C SAFETY T H ROUG H COM M UN ITY PO LI C I NG




                                                57

David M . Sheeren, Regional Audit Manager
January 3 1, 20 12
Page 6


with our plan.

Request:
Based on the discussion and planned action, COPS requests resolution of Recorrunendation 12.


Recommendation 13: Remedy the 54.288 in questioned costs for unaUowable expenditures
for fringe benefits charges not included as an approved budget category.

The COPS O ffice agrees that grantees cannot expend funds on unallowable expenditures.

Discu~ion   and Planned Action:
In order to remedy the $4,288 in questioned costs, the COPS Office has determined that additional
infonn ation and clarification is required before we can make a final decision as to how to proceed.
Therefore, COPS will work with Crow Tribe to obtain additional infonnatioll. Once a decision is
made on how we plan to remedy this recommendation, the COPS Office vvill provide your offic e
with our plan.

Request:
Based on the discussion and planned action, COPS requests resolution of Recorrunendation 13.


Recommendation 14: Ensure the Crow Tribe of Indians develops and implements policies
and procedures to accurately monitor grant-funded equipment by tagging and identifying
equipment purchased with grant funds.

The COPS Offi ce concurs with the recommendation that Crow Tribe develops and implements
policies and procedures to accurately monitor grant-fimded equipment.

Discu~ion and Planned Action:
We will ensure that the grantee develops and implements policies and procedures to accuratel y
monitor grant-fimded equipment.

Request:
Based on the discussion and planned action, COPS requests resolution of Recorrunendation 14.


Recommendation 15: Remedy the $10.316 in questioned costs related to unverifiable
accountable property, including 2 thermal imagers. for Grant No. 2007-CK-WX-0313.

The COPS Offic e concurs that grantees must ensure that accountable property is tracked and
inventoried.


                                                ..
ADVANCING PUBLIC SAFETY THROUGH COMMUN ITY POLICING




                                                58

David M . Sheeren, Regional Audit Manager
January 3 1, 20 12
Page 7


Discussion and Planned Action:
In order to remedy the $ 10,3 16 in questioned cos1B, the COPS Office has detennined that additional
infonn ation and clarification is required before we can make a final decision as to how to proceed.
Therefore, COPS will work with Crow Tribe to obtain additional infonnation. Once a decision is
made on how we plan to remedy tlris rec ommendatio~ the COPS Office vvill provide your offic e
with our plan.

Request:
Based on the discussion and planned action, COPS requests resolution of Recorrunendation 15.


Recommendation 16: Ensure that the Crow Tribe of Indians develops and implements
policies and procedures to obtain prior approval from COPS for any sole source
expenditures.

The COPS Offi ce concurs with the recommendation that Crow Tribe develops and implements
policies and procedures to obtain prior approval from COPS for any sole source expenditures.

Discu~ion and Planned Action:
We will ensure that the grantee develops and implements these JXllicies and procedures.

Request:
Based on the discussion and planned action, COPS requests resolution of Recorrunendation 16.


Recommendation 17: Ensure that the Tribe develops and implements policies and
procedures to communicate with COPS prior to initiating grant activity that significantly
deviates from the goals and objectives outlined in the grant application or applicable
modifications.

The COPS Offi ce concurs with the recommendation that Crow Tribe develops and implements
policies and procedures to communicate with COPS prior to initiating grant activity that
significantly deviates from the goals and obj ectives.

Discu~ion and Planned Action:
We will ensure that the grantee develops and implements these JXllicies and procedures.

Request:
Based on the discussion and planned action, COPS requests resolution of Recorrunendation 17 .




                                                ..
ADVANCING PUBLIC SAFETY THROUGH COMMUN ITY POLICING




                                                59

David M . Sheeren, Regional Audit Manager
January3!, 20 12
Page 8


Reconunendation 18: Ensure that the Crow Tribe of Indians documents all procedures
related to compiling and verifying data submitted in applications for COPS funding.

The COPS O ffi ce concurs with the recommendation that Crow Tribe documents all procedures
related to compiling and verifying data submitted in applications for COPS funding.

Discu~ion   and Planned Action:
We will ensure that the grantee develops and implements these JXllicies and procedures.

Request:
Based on the discussion and plarmed action, CO PS requests resolution of Recorrunendation 18.


Reconunendation 19: Remedy the $25,593 in questioned costs as a result of unallowable
personnel expenditures, including salarv and triooe benefits that exceeded enID-level.

Discu~ion and Planned Action:
In order to remedy the $25,593 in questioned cos ts, the COPS Office has detennined that additional
infonn ation and clarification is required before we can make a final decision as to how to proceed.
Therefore, COPS will work with Crow Tribe to obtain additional infonnation. Once a decision is
made on how we plan to remedy this recommendation, the COPS Office will provide your office
with our plan.

Request:
Based on the discussion and plarmed action, CO PS requests resolution of Recorrunendation 19.


Reconunendation 20: Ensure that the Crow Tribe of Indians develops and implements a
plan to carry out the stated community policing plan.

Discu~ion and Planned Action:
The COPS O ffi ce concurs with the recommendation that Crow Tribe develops and implements a
plan to carry out the stated corrununity policing plan.

Request:
Based on the discussion and plarmed action, CO PS requests resolution of Recorrunendation 20 .

COPS would like to thank you for the opportunity to review and resp:md to the draft audit report.
If you have any questions, please contact me at 2 02-6 16-92 15, or you m ay email at
donald.langM usdoj.gov .




                                                ..
ADVANC I NG PUBLI C SAFETY THROUGH COMMUN ITY POLI C I NG




                                                     .




                                                60

David M . Sheeren, Regional Audit Manager
January 3 1, 20 12
Page 9


cc:      provided electronically

         Louise M. Duhamel, Ph. D.
         Acting Director
         Audit Liaison Group
         Justice Management Division
         alo@usdoj.gov

         Mary T. Myers
         Audit Liaison Group
         Justice Management Division
         alo@usdoj.gov

         Marcia Samuels-Campbell
         Acting Deputy Director, Grant Operations Directorate
         Office of Community Oriented Policing Services

         Lynette Chambliss, Grant Program Specialist
         Grant Achninistration Division
         Office of Community Oriented Policing Services

         Nancy Daniels, COPS
         Audit Liaison Division
         Office of Community Oriented Policing Services

         Cechic Black Eagle, Tribal Leader (Courtesy copy mailed)
         Crow Tribe of Indians
         P.O. Box 159
         Crow Agency, MT 59022

         Larry T obacco, Director of Public Safety (Courtesy copy mailed)
         Crow Tribe of Indians
         P.O. Box 159
         Crow Agency, MT 59022

         Grant File:   2005HEWX0005 2007HEWX0 039 2007 CKWX03 13 2009 RKW X052 0
         Audit File

         ORI: M7000ZZ




                                              ..
ADVANCING PUBLIC SAFETY THROUG H COMMUN ITY POLICING




                                               61

                                                             APPENDIX VII

                 OFFICE OF THE INSPECTOR GENERAL
                ANALYSIS AND SUMMARY OF ACTIONS
                  NECESSARY TO CLOSE THE REPORT

      The OIG provided a draft report of this audit to the Office of
Community Oriented Policing Services (COPS). The response to the draft
report from COPS is incorporated to Appendix VI of this report. The
following provides the OIG analysis of the responses and summary of actions
necessary to close the report.

Recommendation Number:

1.   Resolved. COPS concurred with our recommendation to ensure that
     the Crow Tribe of Indians (Tribe) implements controls to ensure items
     and services billed matches those received. COPS stated in its
     response that it plans to ensure that the grantee implements controls,
     including development of written policies and procedures for receiving
     goods and services, to ensure that the items and services which Crow
     Tribe is billed match what it received.

     This recommendation can be closed when we review documented
     procedures that ensure items and services billed match those received.

2.   Resolved. COPS concurred with our recommendation to remedy the
     $186,287 in questioned costs related to unallowable expenditures paid
     to contractors under Grant No. 2005-HE-WX-0005. COPS stated that
     it agrees with the recommendation and will request additional
     information and clarification from the Tribe before it determines a plan
     to remedy this recommendation.

     This recommendation can be closed when the questioned costs have
     been remedied.

3.   Resolved. COPS concurred with our recommendation to remedy the
     $1,589 in questioned costs related to unsupported expenditures for
     Grant No. 2007-HE-WX-0039. In its response, COPS stated that it
     agrees with the recommendation and will request additional
     information and clarification from the Tribe before it determines a plan
     to remedy this recommendation.

     This recommendation can be closed when the questioned costs have
     been remedied.


                                     62
4.   Resolved. COPS concurred with our recommendation to remedy the
     $252,478 in questioned costs related to unallowable expenditures for
     Grant No. 2007-HE-WX-0039 for purchases not used for the purposes
     specified in the grant. COPS stated that it agrees with the
     recommendation and will request additional information and
     clarification from the Tribe before it determines a plan to remedy this
     recommendation.

     This recommendation can be closed when the questioned costs have
     been remedied.

5.   Resolved. COPS concurred with our recommendation to remedy the
     $6,499 in questioned costs related to unsupported expenditures for
     Grant No. 2007-CK-WX-0313. COPS stated that it agrees with the
     recommendation and will request additional information and
     clarification from the Tribe before it determines a plan to remedy this
     recommendation.

     This recommendation can be closed when the questioned costs have
     been remedied.

6.   Resolved. COPS concurred with our recommendation to remedy the
     $1,369 in questioned costs related to unallowable expenditures for
     Grant No. 2005-HE-WX-0005 for travel and training costs incurred by
     persons not authorized to receive training under the grant. COPS
     stated that it agrees with the recommendation and will request
     additional information and clarification from the Tribe before it
     determines a plan to remedy this recommendation.

     This recommendation can be closed when the questioned costs have
     been remedied.

7.   Resolved. COPS concurred with our recommendation to remedy the
     $12,424 in questioned costs related to unallowable expenditures for
     Grant No. 2007-HE-WX-0039 for travel and training costs incurred by
     persons not authorized to receive training under the grant. COPS
     stated that it agrees with the recommendation and will request
     additional information and clarification from the Tribe before it
     determines a plan to remedy this recommendation.

     This recommendation can be closed when the questioned costs have
     been remedied.



                                     63
8.    Resolved. COPS concurred with our recommendation to remedy the
      $3,784 in questioned costs related to unallowable expenditures for
      Grant No. 2007-CK-WX-0313 for travel and training costs incurred by
      persons not authorized to receive training under the grant. COPS
      stated that it agrees with the recommendation and will request
      additional information and clarification from the Tribe before it
      determines a plan to remedy this recommendation.

      This recommendation can be closed when the questioned costs have
      been remedied.

9.    Resolved. COPS concurred with our recommendation to remedy the
      $1,095 in questioned costs related to unsupported travel and training
      expenditures for Grant No. 2007-HE-WX-0039. COPS stated that it
      agrees with the recommendation and will request additional
      information and clarification from the Tribe before it determines a plan
      to remedy this recommendation.

      This recommendation can be closed when the questioned costs have
      been remedied.

10.   Resolved. COPS concurred with our recommendation to ensure that
      the Tribe receives approval from COPS prior to transferring grant funds
      between direct cost budget categories in excess of 10 percent of the
      total award. COPS stated that it agrees with the recommendation and
      will ensure that the Tribe develops and implements procedures to
      obtain approval prior to transferring grant funds between direct cost
      budget categories.

      This recommendation can be closed when we review documented
      procedures to obtain approval from COPS prior to transferring grant
      funds between direct cost budget categories in excess of 10 percent of
      the total award.

11.   Resolved. COPS concurred with our recommendation to remedy the
      $21,506 in questioned costs related to unallowable expenditures for
      Grant No. 2005-HE-WX-0005 for salary and fringe benefits for the
      unapproved court administrator position. COPS stated that it agrees
      with the recommendation and will request additional information and
      clarification from the Tribe before it determines a plan to remedy this
      recommendation.

      This recommendation can be closed when the questioned costs have
      been remedied.


                                      64
12.   Resolved. COPS concurred with our recommendation to remedy the
      $6,125 in questioned costs for duplicate payroll charges made under
      the Grant No. 2007-CK-WX-0313. COPS stated that it agrees with the
      recommendation and will request additional information and
      clarification from the Tribe before it determines a plan to remedy this
      recommendation.

      This recommendation can be closed when the questioned costs have
      been remedied.

13.   Resolved. COPS concurred with our recommendation to remedy the
      $4,288 in questioned costs for unallowable expenditures for fringe
      benefits not included as an approved budget category in Grant
      No. 2005-HE-WX-0005. COPS stated that it agrees with the
      recommendation and will request additional information and
      clarification from the Tribe before it determines a plan to remedy this
      recommendation.

      This recommendation can be closed when the questioned costs have
      been remedied.

14.   Resolved. COPS concurred with our recommendation to ensure the
      Tribe develops and implements policies and procedures to accurately
      monitor grant-funded equipment by tagging and identifying equipment
      purchased with grant funds. COPS stated that it agrees with our
      recommendation and will ensure the Tribe develops and implements
      policies and procedures to accurately monitor grant-funded equipment.

      This recommendation can be closed when we review documented
      procedures that ensure accurate monitoring of grant-funded
      equipment.

15.   Resolved. COPS concurred with our recommendation to remedy the
      $10,316 in questioned costs related to unverifiable accountable
      property, including 2 thermal imagers, for Grant
      No. 2007-CK-WX-0313. COPS stated that it agrees with our
      recommendation and will request additional information and
      clarification from the Tribe before it determines a plan to remedy this
      recommendation.

      This recommendation can be closed when the questioned costs have
      been remedied.



                                      65
16.   Resolved. COPS concurred with our recommendation to ensure that
      the Crow Tribe develops and implements policies and procedures to
      obtain prior approval from COPS for any sole source expenditures.
      COPS stated that it agrees with our recommendation and will ensure
      that the Tribe develops and implements these policies and procedures.

      This recommendation can be closed when we review documented
      procedures to obtain approval from COPS prior to any sole source
      expenditures in excess of $100,000.

17.   Resolved. COPS concurred with our recommendation to ensure that
      the Crow Tribe implements policies and procedures to communicate
      with COPS prior to initiating grant activity that significantly deviates
      from goals and objectives outlined in the grant application or
      applicable modifications. COPS stated that it agrees with our
      recommendation and will ensure that the Tribe develops and
      implement these policies and procedures.

      This recommendation can be closed when we review documented
      procedures that require approval from COPS prior to initiating grant
      activity that significantly deviates from goals and objective outlined in
      the grant application.

18.   Resolved. COPS concurred with our recommendation to ensure that
      the Crow Tribe documents all procedures related to compiling and
      verifying data submitted in applications for COPS funding. COPS
      stated that it agrees with our recommendation and will ensure that the
      Tribe documents all procedures related to compiling and verifying data
      submitted in applications for COPS funding.

      This recommendation can be closed when we review documented
      procedures that require documentation of all procedures relating to
      compiling and verifying data submitted in applications for COPS
      funding.

19.   Resolved. COPS concurred with our recommendation to remedy the
      $25,593 in questioned costs for unallowable expenditures including
      salary and fringe benefits that exceeded entry-level under Grant No.
      2009-RK-WX-0520. COPS stated that it agrees with our
      recommendation and will request additional information and
      clarification from the Tribe before it determines a plan to remedy this
      recommendation.




                                      66
      This recommendation can be closed when the questioned costs have
      been remedied.

20.   Resolved. COPS concurred with our recommendation to ensure that
      the Crow Tribe develops and implements a plan to carry out the stated
      community policing plan for Grant No. 2009-RK–WX-0520. COPS
      stated it that it agrees with our recommendation and will ensure the
      Tribe develops and implements the stated community policing plan.

      This recommendation can be closed when we receive evidence that
      Tribe is carrying out the stated community policing plan for Grant
      No. 2009-RK–WX-0520.




                                    67
